<html>
<title> - SUH AND SCHNEIDER NOMINATIONS</title>
<body><pre>[Senate Hearing 113-191]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-191

                     SUH AND SCHNEIDER NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

THE NOMINATIONS OF MS. RHEA S. SUH, TO BE ASSISTANT SECRETARY FOR FISH 
 AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR, AND MS. JANICE M. 
SCHNEIDER, TO BE ASSISTANT SECRETARY FOR LAND AND MINERALS MANAGEMENT, 
                       DEPARTMENT OF THE INTERIOR

                               __________

                            FEBRUARY 4, 2014





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
86-876 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel












                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     1
Schneider, Janice M., Nominee to be an Assistant Secretary of the 
  Interior (Land and Minerals Management), Department of the 
  Interior.......................................................     3
Suh, Rhea S., Nominee to be Assistant Secretary of Fish and 
  Wildlife and Parks, Department of the Interior.................     5
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    25

                              Appendix II

Additional material submitted for the record.....................    41

 
                     SUH AND SCHNEIDER NOMINATIONS

                              ----------                              


                       TUESDAY, FEBRUARY 4, 2014

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:16 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

       OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    The Chairman. The Committee will come to order.
    The committee meets this morning to continue its 
consideration of the nominations of Rhea Suh, to be the 
Assistant Secretary for Fish and Wildlife and Parks and Janice 
Schneider, to be an Assistant Secretary of the Interior for 
Land and Minerals Management. The committee previously held a 
hearing on Ms. Suh's nomination on December 12th and on Ms. 
Schneider's nomination on December 17th. After discussing this 
with colleagues a number of colleagues have requested that we 
have an opportunity to ask the nominees additional questions.
    Because today's hearing is a continuation of our previous 
hearings it's not necessary to repeat the usual formalities 
that were completed last month. So there's no need to repeat 
the oath. Although I want to remind the witnesses they remain 
under the previous oath in accordance with the committee's 
rules.
    The purpose of today's hearing then is to supplement rather 
than reproduce the extensive hearing record the committee 
compiled last December.
    Also I want to assure that each member of the committee 
will have an opportunity to ask the nominees the additional 
questions that they may have. I'm equally committed to ensuring 
that the committee has an opportunity to act on these 2 
nominations within the next week.
    Senator Murkowski, would you like to make any remarks 
before we begin?

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I appreciate your willingness to convene this second 
nomination hearing for both of the President's nominees for the 
Department of the Interior. As you mentioned a number of us had 
concerns and reservations on these particular nominations. That 
was why we had requested this re-hearing.
    I am hopeful that at the hearing today we will hear, in 
greater detail, responses to our questions and other issues 
that perhaps have not yet been satisfactorily resolved.
    Ms. Suh, let me start with you first.
    Go ahead.
    The Chairman. With just a little bit more of a formality 
and then we'll go right to you.
    Senator Murkowski. OK.
    The Chairman. Would that be alright?
    Ms. Suh and Ms. Schneider, your statements from your 
previous hearings are already in the record. You are not 
required to make new ones. But each of you is welcome to make 
any additional statement you care to make at this time.
    Do either of you desire to do that?
    You would like to make additional comments?
    Ms. Schneider. Yes, Senator.
    The Chairman. Ms. Schneider, why don't we go ahead with 
that?
    I want it understood, I strongly support both of the 
nominees. I will have no questions. So when you're done, Ms. 
Schneider, and if you have any additional comments, Ms. Suh, we 
will begin the questioning then with Senator Murkowski.
    Senator Murkowski. If I may, Mr. Chairman, just I have some 
comments in my opening statements that I think might be helpful 
for both of the nominees in terms of what I'm looking for.
    The Chairman. Very good.
    Senator Murkowski. So if they can address them in their 
opening. If they can that takes care of it. If not, I can 
include it in the questions.
    Is that OK with you?
    The Chairman. Which--whatever is your pleasure, Senator.
    Senator Murkowski. I will be very brief. I will be brief. I 
thank you for that.
    As you note, both Ms. Suh and Ms. Schneider have been 
before the committee before.
    Ms. Suh, you've had the opportunity now, I think this is 
your third, because you were also before EPW. My concern is, as 
I have expressed to you in private conversation, that based on 
the records of the previous hearings, as well as our meeting, I 
do have serious reservations about, not only what I perceive is 
your lack of knowledge on western lands issues, but also your 
unfamiliarity with Alaska's most pressing issues and our unique 
governing statutes.
    I know that some would look at that and say, well, that's 
pretty parochial. But when you put in context that over 70 
percent of the National Wildlife Refuge system in this country 
and two-thirds of our National Park System is located in 1 
State, in the State of Alaska, it's not parochial. It is the 
confines of this job that you are being nominated to.
    So when you indicated in our meeting that you weren't 
prepared to discuss any of my State's issues in detail, that 
concerned me. I also have to express dissatisfaction with your 
answers to many of the questions I submitted for the record at 
our last hearing. So I am eager today to hear your candid views 
on development of the Arctic Coastal Plain, the lifesaving road 
that I'm seeking for King Cove, the potential use of Land and 
Water Conservation Fund to address our maintenance backlog, the 
role of hunting and fishing within our refuges and preserves, 
subsistence reform in Alaska which is a key issue right now and 
tribal self governance.
    I would also like to generally address the leadership of 
the U.S. Fish and Wildlife Service.
    I believe quite firmly that the agency is going in the 
wrong direction. I think it's lost sight of its responsibility 
to the American people. This problem is perhaps most recently 
highlighted by the service's role in the fundamentally flawed 
review process and rejection of the lifesaving King Cove Road.
    But it's not limited to just that single decision. My view 
is that the service is not considering the impact of its 
decisions on people across our country. This is troubling 
direction for the agency. I think the agency needs to be turned 
around.
    Ms. Schneider, I note that you received a bipartisan letter 
from several members of the committee. I do hope that you're 
familiar with the IG report and that it centers on and are 
ready then to answer questions about the issues that were 
raised within it.
    I also need to mention Shell's disappointing announcement 
last week to cancel its exploratory drilling program in the 
Chukchi Sea this summer. The decision is based on a Ninth 
Circuit Ruling that the EIS for lease sale 193 is deficient, 
but also because there is no regulatory certainty or permitting 
predictability for Arctic development.
    So I would like a firm commitment from you, from the 
Administration, that you support the development of the oil and 
gas resources off of Alaska's coast and will work hard to 
ensure that Shell can move forward in 2015 and that development 
can occur in the future.
    So, Mr. Chairman, I will have questions along those lines, 
but hopefully it will allow both Ms. Suh and Ms. Schneider to 
address some of those issues in this re-hearing. Again, I 
appreciate the willingness of both of you to be here this 
morning and your willingness to step up.
    Thank you.
    The Chairman. Ms. Schneider, you indicated you'd like to 
make some remarks and you as well, Ms. Suh?
    Ms. Suh. Yes.
    The Chairman. Very good.
    Then we'll go with you, Ms. Schneider, then you, Ms. Suh. 
Then we'll go back and forth both sides in questions.
    Ms. Schneider.

 TESTIMONY OF JANICE M. SCHNEIDER, NOMINEE TO BE AN ASSISTANT 
   SECRETARY OF THE INTERIOR (LAND AND MINERALS MANAGEMENT), 
                   DEPARTMENT OF THE INTERIOR

    Ms. Schneider. Thank you, Mr. Chairman, Ranking Senator 
Murkowski and members of the committee. It's an honor to appear 
before you again today to be considered for the important 
position of Assistant Secretary for Land and Minerals 
Management at the U.S. Department of the Interior. Because my 
personal statement and background is already in the record, my 
brief summary today will focus on my work experience and its 
relevance to this important position.
    After decades of work in the private sector and in Federal 
service on Interior related issues, I'm recognized as a leader 
in my field. If confirmed, I intend to bring my experience and 
judgment to the tough issues and questions facing the 
Department and the country. I believe we have a tremendous 
opportunity to continue and to accelerate the development of a 
strong and diverse energy portfolio that will lead to greater 
economic and national security for our country. This is why I 
support the President's All of the Above strategy.
    Over the last 12 years, actually it will be 13 in March, 
I've worked in the private sector helping companies 
successfully and responsibly develop large scale energy, 
mineral and infrastructure projects on Federal lands. I've 
worked on high stakes projects, some valued at close to $2 
billion across the West and in other parts of the country.
    My experience includes coal projects, oil and gas projects, 
wind, solar, geothermal, liquefied natural gas development, 
hard rock and leasable mineral development, refinery issues in 
Alaska, hydropower projects, high voltage transmission and 
pipelines and also timber, road, fishery, endangered species, 
migratory bird, marine mammal and conservation projects as well 
as those involving American Indian issues among many others.
    The Chairman. Do you ever sleep?
    Ms. Schneider. You know.
    [Laughter.]
    Ms. Schneider. Not as much as I would like.
    But I think as a result of all of this experience and the 
fact that I interfaced with the government on a very regular 
basis on behalf of my industry and financial clients, I 
understand that Federal decisions have real world impacts on 
the citizens of this Nation and that delays often result in 
costs.
    In my experience Federal decisions must be transparent.
    They must be objective.
    They must be science based.
    They must take all stakeholder views into consideration.
    We must work together to create jobs in an environmentally 
responsible, safe and efficient way and to balance conservation 
while securing this Nation's energy needs which I am very 
strongly committed to.
    If confirmed, I look forward to working with each of you on 
this committee, with Congress and stakeholders.
    Thank you, Mr. Chairman and distinguished members of the 
committee. I would be pleased to take any additional questions 
you should have.
    The Chairman. Ms. Schneider, thank you. I was for you 
before and I'm not changing my mind.
    Ms. Suh.

STATEMENT OF RHEA S. SUH, NOMINEE TO BE ASSISTANT SECRETARY OF 
    FISH AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR

    Ms. Suh. Mr. Chairman, ranking member and members of the 
committee, it is an honor to be back here again. It is an honor 
to be nominated for the Assistant Secretary for Fish and 
Wildlife and Parks.
    I'm going to tell you a little bit about the qualities that 
I think I will bring to this job. I have nearly 20 years of 
experience working on natural resource policy issues.
    I first began my career as a Senate staffer. I started off 
as a constituent rep where I learned the importance of local 
outreach and engagement. I moved my way up to a Legislative 
Assistant working for this very body, both as a Democratic 
staffer and then as a Republican staffer where I learned 
firsthand the importance of balance, the importance of multiple 
perspectives and the importance for bipartisan solutions to 
conservation.
    I brought these values into my work in 2 foundations where 
I focused my efforts to increase the capacity of organizations 
to work with local communities and to empower local community 
voices. I focused my efforts on balancing the economic needs 
and aspirations of these communities with conservation 
opportunities.
    Finally, I have held the post of the Assistant Secretary 
for Policy, Management and Budget at the Department of the 
Interior for the past 4 and a half years. I know how to manage 
budgets. I know how to hold people accountable to performance 
goals. I know how to reach across jurisdictional boundaries to 
bring bureaus together around common goals.
    I will bring all of this experience into my work, if 
confirmed, as the Assistant Secretary for Fish and Wildlife and 
Parks.
    There are huge challenges and opportunities associated with 
each of the 2 agencies. I believe that these challenges and 
opportunities can only be met by pragmatic approach to solving 
problems. I commit to working very closely with this body in an 
effort to find these balanced solutions that can contribute to 
the conservation of our Nation's lands and waters.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Ms. Suh.
    I'm not going to ask any questions of you either. I would 
ask unanimous consent though to put into the record a memo that 
outlines, particularly, some of Ms. Suh's excellent work in 
terms of finding savings in the budget that she's been working 
at the Department of the Interior. I understand that it's 
something like $500 million in terms of savings that have been 
derived from budget and management changes.
    Without objection that's entered into the record at this 
time. Perhaps you'll want to talk more about it further.
    The Chairman. We'll start with questions from Senator 
Murkowski and then in order of appearance. I think Senator 
Schatz was first on our side and we'll just go back and forth.
    Senator Murkowski.
    Senator Murkowski. Mr. Chairman, I'm told that Senator 
Flake has a time commitment and has to leave the committee in 
about 5 minutes. So I will defer my questions to him, if we 
may.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Senator Murkowski, I appreciate 
indulgence here.
    Ms. Suh, I'd like to, for a moment, revisit the National 
Park Service's shutdown windfall as we, in the States that 
actually paid during the shutdown, call it. When we previously 
discussed this in the last hearing I didn't get what I feel are 
satisfactory answers here. In recent conversations with the 
Department of the Interior and others there seems to be some 
confusion about what the States paid and what that covered.
    Given your current position as Assistant Secretary for 
Policy, Management and Budget where you oversee the 
Department's budget policy, you're in an ideal position to deal 
with these issues.
    Now in your capacity as Assistant Secretary did you work 
with the Secretary to understand and implement the continuing 
Appropriations Act of 2014?
    Ms. Suh. Yes, sir, I did.
    Senator Flake. OK.
    Is it your understanding that that act provided retroactive 
pay for National Park Service employees?
    Ms. Suh. Yes, I did, sir.
    Senator Flake. Good.
    In a response letter about the park openings Director 
Jarvis acknowledged that personnel costs make up the bulk of 
park operating costs. Is that true?
    Ms. Suh. I actually don't know the exact mix. But yes, the 
Department of the Interior overall is very personnel intensive 
in terms of our budget.
    Senator Flake. Thank you.
    Are you aware that park units like the Grand Canyon also 
collected entry fees while temporarily reopening, using State 
funds?
    Ms. Suh. I am not aware of the specific details of that, 
but that would make sense.
    Senator Flake. Yes, they did. Those fees went to the 
Department of the Interior. So while those 6 States provided $2 
million to cover the portion of park operating and personnel 
costs during the shutdown the parks collected gate receipts and 
Congress also retroactively funded park units for all those 
same costs during the park--through which the park where they 
expended funds during the entire shut down.
    As such, it appears that the Park Service received about a 
$2 million windfall here. Is that correct? Is that how you see 
it?
    If not, how do you see it?
    Ms. Suh. Sir, I don't know the specifics of the exact 
amount that you are characterizing as a windfall. But I 
recognize that the State received a donation from--I'm sorry, 
the Park Service received a donation from the State and then 
also retroactively received appropriations from Congress.
    Senator Flake. That's correct.
    Taxpayers in Arizona, Colorado, New York, South Dakota, 
Tennessee and Utah essentially paid twice to operate the parks. 
Most of the cost to operate the parks are obviously personnel. 
The Appropriations Act of 2014 retroactively backfilled, you 
know, the salaries. So, that represents a windfall to the 
Department.
    Now we, in Arizona, obviously would like, as was done 
during the 1990s during the previous shutdown to be reimbursed 
for those costs. What is your position there? Do you believe 
that States like Arizona, Colorado, New York, South Dakota, 
Tennessee and Utah, who came together to mitigate the damage 
and paid, essentially twice, to operate the parks should be 
refunded that money?
    Ms. Suh. Senator, thank you for all of these questions. I 
know that they came up in the previous hearing. I'm sorry that 
I wasn't clear enough at that time. I absolutely support the 
repayment of States in this specific circumstance. I believe 
that we require Congressional authorization in order to do 
that.
    I would support opportunities for that Congressional 
authorization.
    Senator Flake. Specifically you've said that it would 
require legislation. So if legislation is introduced will the 
Department of the Interior support legislation to reimburse 
States for keeping the parks open?
    Ms. Suh. Yes, sir, I believe we will.
    Senator Flake. You will.
    Thank you.
    The Chairman. Thank you, Senator Flake.
    It was my understanding that we're going to go right to 
Senator Schatz. So we're clear that the Interior Department was 
unable to pay the States because the Appropriations bill didn't 
authorize it.
    So that's the State of play now. I want it understood that 
I'm very interested in working with Senator Flake on this 
matter. I understand the nominee is going to do that as well.
    So that's helpful.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman. Thank you, Ranking 
Member Murkowski.
    I'm confident that Ms. Suh will be an excellent partner in 
her new role overseeing the Fish and Wildlife Service and the 
National Park System, both of which play an important role in 
Hawaii's efforts to preserve endangered species and promote 
economically important tourism. Ms. Suh is a competent and 
effective public servant. I think it's important to remember 
that she was reported unanimously out of this committee for her 
current position as Assistant Secretary for Policy, Management 
and Budget in 2009.
    In her role as Assistant Secretary for Policy, Management 
and Budget at Interior, she's led the management and 
reorganization that has led to more than $500 million in 
savings and millions more in cost avoidance including $160 
million associated with real estate consolidations and $200 
million in smarter purchasing agreements.
    She's also led the launch of the information technology 
transformation, the completion of the Department's integrated 
financial and acquisition enterprise system and implementation 
of the improvements in acquisition finance and facilities.
    Since January over 200 nominees will return to the White 
House and re-nominated. Of those, 93 executive nominees and 29 
judicial nominees have already been placed on the executive 
calendar. Only 2 nominees, the 2 in front of us, Ms. Suh and 
Ms. Schneider, are doing a re-hearing.
    So Ms. Suh, my question for you is if you could describe 
exactly what you did within the Department in terms of the cost 
saving measures that you've implemented in your current role 
and overall what effect on the Department's ability to do its 
job that has had?
    Ms. Suh. Senator, it's nice to see you. I want to thank you 
personally for the opportunity you gave me to meet with me in 
person in December.
    Thank you for that question. Let me talk a little bit about 
IT transformation and the work that we've been engaged in at 
the Department.
    When I first arrived at the Department we had over 14 
different email systems working simultaneously and working, in 
many cases, in opposition to one another. It was such a mess 
that we actually couldn't actually send an all employee email 
with any degree of ease. We were spending almost 10 percent of 
our overall budget every year on information technology and 
obviously not getting the services out of that huge investment 
that I think we deserve.
    Through a process of reorganizing and consolidating the 
infrastructure associated with our IT we project that we can 
save over $500 million every year. This is telecom 
consolidation. This is email consolidation. We have whittled 
down those 14 email systems down to a single email system now 
and data center consolidation.
    We rank fourth in the Federal Government for the number of 
data centers that we have. Many of those data centers run 
anywhere from 7 to 10 percent of capacity. This is well under, 
kind of, best management practices for industry and for 
government. So trying to find opportunities to rationalize the 
oftentimes byzantine infrastructure that we have on the IT side 
to modernize it and to create efficiencies that ultimately 
result, I think, in better management outcomes, 
interoperability opportunities for all of our bureaus to work 
together and speak with more of a common voice.
    Those are the kinds of things that I had a chance to work 
and I'm quite proud of.
    Senator Schatz. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Schatz.
    Senator Landrieu. Excuse me, Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ms. Suh, a couple questions for you. The first one is not 
necessarily a question it is a request. October 25 of 2013 
Congressman Young and I sent a letter to Secretary Jewell 
regarding some issues as they relate to subsistence. If you are 
confirmed to your position you will be overseeing the Office of 
Subsistence Management.
    In the letter that we sent to Secretary Jewell and to 
Secretary Vilsack we have asked for consideration of several 
different issues as they relate to subsistence, specifically 
composition of the Federal subsistence board as well as reform 
of the rural determination process. We have yet to hear back 
from anyone in the Department.
    Just yesterday I was on teleconference with Alaska native 
leadership from across the State. Over 150 members were there 
talking about the issue of subsistence. Representatives from 
the Department of the Interior were asked to participate and 
apparently declined.
    For some reason there seems to be a chill right now in the 
State as our native leadership is trying to get some discussion 
or dialog going on a very important issue to them, specifically 
subsistence. They just aren't hearing anything.
    So I'm going to make a public ask. If you could let, not 
only the Secretary, but those in Fish and Wildlife, as you are 
weighing in on this, that we are waiting to hear a response to 
our inquiry from October.
    I wanted to ask you about your role in the decision that 
the Secretary of Interior made 2 days before Christmas in 
rejecting the lifesaving road between King Cove and Cold Bay.
    Some have suggested that, again, I am far too parochial in 
my view. But as I told the Secretary of the Interior, this is 
more than just rejecting a ten mile, one lane, gravel, non 
commercial use road. This is how many Alaskans feel that this 
Administration is treating us when we are far away at the other 
end of the continent here and kind of out of sight, out of 
mind.
    If you can explain to me whether or not you were involved 
with that decision that was made by the Secretary?
    Ms. Suh. Senator, I was not involved in that decision.
    Senator Murkowski. So you had no role at all?
    Ms. Suh. No, ma'am, I did not.
    Senator Murkowski. OK.
    In the press release announcing the decision that Secretary 
Jewell made 2 days before Christmas she said that she 
understood the need for reliable methods of medical transport 
from King Cove. She reiterated the Department's commitment to 
assist in identifying and evaluating options that would improve 
access to affordable transportation and health care for the 
citizens. Can you tell me if the Department has actually done 
anything to help the people of King Cove since this decision 
was made?
    Ms. Suh. I, again, I recognize the decision was made about 
a month ago. I am not aware of any actions, specifically by the 
Fish and Wildlife Service. But let me just state very clearly 
that if I am confirmed for this position I will do everything, 
within my power, to work with the citizens of King Cove to 
improve their transportation systems.
    Senator Murkowski. Tell me what? What specifically then is 
the Department doing to identify, to evaluate what options may 
be out there to improve access, lifesaving access, for the 
people in the region?
    Ms. Suh. Again, Senator, I wasn't involved in the 
deliberative process or in the decisionmaking process.
    Senator Murkowski. I understand that.
    Ms. Suh. There are a lot of details, I think, involved 
within that deliberative process that I think could point us 
into the directions of the options.
    Senator Murkowski. So have you been involved in discussion 
about any of the options that may be under consideration?
    Ms. Suh. No, ma'am, I have not.
    Senator Murkowski. Is the Department preparing then to 
propose anything to help the people of King Cove as you're 
putting together the upcoming budget?
    Ms. Suh. Again, I am not aware of any specific actions that 
may be happening right now in terms of responding to this 
situation. But if confirmed, I absolutely will make this a 
priority. I will work with the citizens of King Cove as well as 
your office to try to pursue these options.
    Senator Murkowski. I will tell you that the review that 
came out from the Fish and Wildlife Service, we believe, was 
fundamentally flawed. It resulted in a fundamentally flawed and 
potentially fatal decision for the small village of King Cove 
and the people that live out there.
    I have told the Secretary and I will tell you we are not 
done with this issue. Nowhere, nowhere in the country would a 
simple road corridor, that has limited impact, absolutely 
limited impact to the millions of water fowl that move through 
there. Nowhere would this ten mile road be denied people to 
gain access to a lifesaving airport.
    I cannot understand the direction that this Administration 
has taken when you have a Secretary who says that it's not the 
schoolchildren of King Cove that we need to be looking at, that 
we need to be considering but we need to think about the 
animals first. I like the animals too. But we have got to 
figure out how we're going to take care of the people in my 
State.
    When you have an agency that is saying, sorry, you're too 
far off the grid, you don't matter. This is the problem that 
I've got with this Administration right now. I don't seem to be 
getting anyone's attention. So I'm starting with you.
    I'll have some other questions.
    The Chairman. Thank you, Senator Murkowski.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I certainly can understand Senator Murkowski's frustration. 
I felt like a lot of sports writers were out of sight, out of 
mind when it came to the Seahawks. But at least we put that to 
rest. People have a little bit of a better understanding of 
what a good defensive team can do.
    So I definitely know, we in the Northwest, sometimes people 
just don't quite get all the issues.
    But I want to say thank you to you, Ms. Suh for your work 
on the lower LWAH and the LWAH dam removal because that's been 
a big success in return of fish. Those are the initial 
indications. I don't know how much you've followed it since the 
last year's activities. But the project is going well from all 
accounts.
    One of the issues, Mr. Chairman, I'm interested in is 
obviously having this position filled because there's only so 
much that can be done within the agency without an Assistant 
Secretary. So the 2 things I'm most concerned are obviously 
backlog maintenance on roads which it seems like we have a 
never ending problem of catching up on and our current fire 
season threat because we have one of the worst droughts now 
coming in the West. How do we get ready for fire season.
    So if you could talk about those 2 issues.
    Ms. Suh. Senator, thank you very much for those questions. 
I have to admit that I'm a Coloradan and a Broncos fan.
    Senator Cantwell. Uh oh.
    Ms. Suh. You absolutely deserved the victory.
    The Chairman. That's what we call an admission against 
interest.
    [Laughter.]
    Ms. Suh. What can I say? What can I say?
    [Laughter.]
    Ms. Suh. To answer your 2 questions I'll start off with the 
maintenance backlog issue, obviously a huge challenge within 
the National Park Service in particular. Of the roughly $11 
billion backlog that the Park Service has, about a half of that 
is in roads and transportation system. I think first and 
foremost we need to work with the Department of Transportation 
and the Federal Highway Administration to ensure that they're 
prioritizing the resources in those funds for the Park Service 
and for these infrastructure projects within the Park Service.
    But I think, as you know, you know, we're 2 years away from 
this historic centennial anniversary of the Park Service that 
provides this incredible opportunity to galvanize levels of 
private/public support that we have not yet seen before, really 
attracting private investment and challenge cost share 
opportunities to leverage the opportunity that we have with the 
centennial to actually fix a lot of the stuff that we have in 
the service.
    As you know one of Secretary Jewell's highest priorities is 
to engage young people all around this country and really 
trying to energize the attention of young people in 
volunteering for the National Parks and our other public lands 
to help address some of these maintenance issues I think is 
also another opportunity.
    Finally I think the Park Service, as they recently have 
testified before this committee, feels like there's 
opportunities to improve their authorities in contracting and 
cooperative agreements and in their concessions authorities to 
give them more flexibility about how they use those authorities 
and how they channel those funds, again, into these important 
infrastructure challenges.
    So I think there's a number of opportunities, again, 
crystallized with the context of the centennial that will give 
us the opportunity to really get at these maintenance backlog 
issues.
    Turning to fire, I want to express my thanks to the 
chairman for his leadership on really helping us try to develop 
a more rational approach to fire budgeting. As many of you know 
we have fallen short of adequate resources for fire over the 
last several years. We've often had to balance our fire needs 
with other balances at the Department for construction and 
maintenance. Robbing Peter to pay Paul, if you will.
    I think approaching the fire budget with more rationality 
and frankly giving us the resources that we require, not only 
for the absolute necessities of actual fire fighting, but the 
proactive things that we can do through hazardous fuels 
management and fire preparedness. I think balancing those 
things with, again, more of a robust budgeting structure 
enables us to be more prepared year round for the challenges 
that we face in fire.
    Senator Cantwell. I just, Mr. Chairman, I feel like what's 
happening in the West right now on this issue is like, is 
brewing into a big problem. So I certainly want us to make sure 
we move forward with a plan and something that addresses this 
now because this level of drought just means bigger problems 
later. So I hope we can get you in this position and move 
forward on what really needs to be an aggressive response to 
this level of drought.
    Thank you.
    The Chairman. Senator Cantwell, I want to recognize Senator 
Heller, but just pick up on this point you mentioned with 
respect to fire.
    I think people ought to recognize what is coming in the 
months ahead. We have already had fires on the Oregon coast. 
There have been fires in California. This was in January.
    I mean, we think about fire season, sort of, middle summer, 
July, August. I think we ought to recognize as Senator Cantwell 
noted, just how serious this problem is. We made a start, as 
the nominees know, in the budget with some additional money for 
hazardous fuels reductions.
    But the reality is we need a bipartisan overhaul of fire 
policy. Senator Murkowski has been very helpful in this regard, 
as well as Senator Risch and Senator Crapo of Idaho. But what 
happens is we essentially don't do enough preventive kind of 
work. Then you might have a lightning strike, or something of 
this nature, and you have an inferno on your hands. The 
bureaucracy then raids the prevention fund in order to fight 
the fire. The problem gets worse.
    Ms. Suh, I bring this up, not only because you have a lot 
of Westerners here who care a great deal about fire policy. But 
there is bipartisan interest in fixing this policy. I want to 
acknowledge for the record that you are part of the team that 
helped to get us the policy that now has genuine regulation, 
bipartisan support. I appreciate that.
    Thank you, Senator Cantwell for bringing that up.
    Senator Heller.
    Senator Heller. Mr. Chairman, thank you. Thanks for your 
additional comments on the drought. Ms. Cantwell, I agree with 
you wholeheartedly the impact that this drought is having on 
these Western States.
    I want to also congratulate both of the nominees for being 
here today and hope all works out well.
    I apologize to you, Ms. Schneider. You're doing a great job 
up there, but my questions will be devoted to Ms. Suh also.
    That being in mind, Ms. Suh, you know that Nevada faces 
many challenges, especially the fact that 87 percent of the 
State is managed by the Federal Government. So you'll play an 
important role moving forward. As we mentioned already about 
wildfires, the habitat restoration to permitting all types of 
activities on these public lands, obviously including renewable 
energy, recreation, grazing and mining. So a lot of decisions 
that you're going make are going to have heavy impact.
    But there's one issue that has the ability to eclipse all 
other issues in the State of Nevada and that's the potential of 
Endangered Species Act listing of the sage grouse. You and I 
had that conversation in our office. I appreciate you taking 
time.
    The U.S. Fish and Wildlife Service is required by the 
courts to determine if the greater sage grouse should be listed 
as either threatened or endangered by September of next year. 
The concern is is if the sage grouse is listed as an endangered 
species, Nevada's way of life and our fragile economic recovery 
will be in jeopardy. Just the anticipation of this decision is 
already beginning to have a negative impact on activities and 
development on Nevada's public lands.
    Preventing a listing requires collaboration between the 
States, the relevant Federal agencies, including yours and all 
stakeholders. I'm currently working on Federal legislation with 
the senior Senator from Nevada that will assist the Governor of 
Nevada, Governor Sandoval, and the Sage Grouse Ecosystem 
Council in addressing the primary threats to sage grouse and 
its habitat. So Ms. Suh, today I appreciate this collaboration 
that BLM and the Fish and Wildlife have played a major role in 
this Council, this Sage Grouse Ecosystems Council.
    So my question is if you're confirmed as Assistant 
Secretary I think you'll play an important role in some of this 
decisionmaking and regarding sage grouse listing. So the 
question, of course, we want to know back in the State of 
Nevada is can you assure us that agencies that are under your 
purview will devote time and resources necessary and to work 
collaboratively with me and the State of Nevada to try to avoid 
the CSA listing?
    Ms. Suh. Sir, thank you very much for that question and 
also for the time that you spent with me in December.
    Senator Heller. Of course.
    Ms. Suh. I absolutely will commit, if confirmed, to making 
this a top priority to working across our jurisdiction lines 
both with the Fish and Wildlife Service and with the Bureau of 
Land Management and hopefully with my colleague, Ms. Schneider 
here, to approach this enormous problem and to make sure that 
we have the resources to address it appropriately.
    Senator Heller. OK.
    A lot of my, as I travel in State, a lot of my State's, a 
lot of my constituents are a little skeptical that the Federal 
agencies will take their comments into account. Similarly they 
worry that no matter what type of legislation that myself and 
Senator Reid put together that the Fish and Wildlife will still 
list the sage grouse as endangered. I guess the question is can 
our Federal legislation affect a listing decision or allow the 
service to provide Nevada greater flexibility under Section 4D?
    Ms. Suh. Sir, I don't know the particular details of the 
legislation. Although, I have spent some time with Senator 
Reid's staff and would be grateful for spending more time with 
your staff to learn more about the legislation that you are 
considering. I am very interested, again, in making sure that 
we have all hands on deck to do everything that we can to 
ensure the conservation of this species, to avoid the necessity 
of listing.
    Senator Heller. OK.
    In your discussions with Senator Reid's office and 
hopefully with my office, are there any specific requirements 
that must be in the State plan in order to--and with our 
Federal legislation to meet, necessary to meet, in order to 
give Nevadans flexibility? Have you come to that point or that 
portion of the discussion?
    Ms. Suh. Again, sir, I'm not aware of the details of the 
legislation that you----
    Senator Heller. By the way, it's not a bill. It's just a 
draft right now.
    Ms. Suh. Gotcha.
    Senator Heller. We're trying to get more information.
    Ms. Suh. Understood. Again, you know, if confirmed for this 
position I will ensure that the Fish and Wildlife Service is at 
the table providing you appropriate comments and feedback on 
the nature of the legislation and on the potential of the 
legislation for addressing some of these challenges. 
Absolutely.
    Senator Heller. OK.
    Ms. Suh, thank you. Ms. Schneider, thank you also.
    Ms. Suh. Thank you.
    The Chairman. I thank my colleague.
    Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    I want to thank Ms. Suh in particular for the focus on fire 
and the recognition that we need to move from just suppression 
to prevention and to efforts to get in front of this. To give a 
little perspective from the Southwest, our fire season is 
typically in May and June and early July. Last year we had a 
very dry summer followed by one, a couple weeks of incredibly 
intense precipitation. So we have all the fine fuels in place. 
You follow that up with now a very dry winter. We're staring at 
a very challenging fire season moving forward.
    I think this isn't an area where the Administration, 
Republicans and Democrats on this committee, all recognize that 
we can do better, that we need to be focused more on prevention 
and not to the exclusion of suppression, but we need to get 
ahead of this. I appreciate your efforts to work with us on 
that.
    I don't have any questions. I just want to return to the 
point that Senator Schatz made that at the end of last year 200 
nominees were sent back to the White House because of Senate 
inaction. Ninety-three Executive committee nominees are now 
back on the Executive schedule, 29 judicial nominees. Only 2 
were scheduled for a re-hearing.
    I think this Administration needs to have a team in place 
to be able to govern. I'm not sure why the 2 of you were 
singled out for a re-hearing. But I think given the 
qualifications that we've seen here, their cooperation with 
this committee, I think it's high time to move their 
nominations forward.
    I hope we can do that. You'll certainly have my support.
    The Chairman. Senator Heinrich, thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman
    Ms. Schneider, thanks so much for taking time to visit with 
me and welcome back to the committee.
    On January 8th, as we've discussed, Senator Manchin, 
Senator Portman, Senator Lee and I sent you a letter about the 
Inspector General's report on the Office of Surface Mining's 
Stream Rule. The report shows that political appointees as OSM 
directed the career staff members and the contractors. The 
political appointees directed the career staff and the 
contractors to change the method that they've used on how to 
estimate job losses which would result from the rule because 
the political appointees were pretty embarrassed by how bad 
this was going to hurt the economy.
    The political appointees did this only after the media 
reported that the Office of Surface Mining's Stream Rule would 
cost about 7,000 jobs in the coal industry. So the political 
appointees said, oh, we can't allow the Obama Administration to 
see how horrible this is for the economy. We better change the 
way we do it and tell these people who have made a career out 
of working in the Department that they were going to be 
overruled for political purposes.
    So, if confirmed, you will oversee the OSM and this 
rulemaking. You'll be in a position to determine how OSM 
estimates the job losses which are expected to result from this 
rule. People will lose jobs as a result of this rule.
    In our letter and it was a bipartisan letter from members 
of this committee, both Republicans and Democrat, we explained 
that we would only be able to support a nominee who will direct 
the office to abide by its original position for estimating job 
losses, specifically a nominee who will estimate job losses by 
using the 1983 Stream Rule not the things that had happened in 
2008 to use a 1983 as a baseline for all the States other than 
Tennessee and Washington.
    Now on Friday you wrote back that, if confirmed, you will 
ensure that any proposed rule is completed, you said, in a 
manner consistent with Federal law. Do you believe that OSM 
could use the 2008 Stream Rule as the baseline for estimating 
job losses and still be in compliance with Federal law?
    Ms. Schneider. Senator, thank you for that question. I 
wanted to thank you very much for the time that we spent 
together yesterday. I appreciated the opportunity to learn more 
about your perspectives and your concerns with respect to this 
particular issue.
    I also want to thank you for the letter. I was not 
previously aware of these issues. When I received your letter, 
that night actually, I immediately downloaded the public 
version of the report and read the report so that I could begin 
to consider these issues.
    I also had an opportunity to watch the House hearing that 
was held on this issue. So, you know, I did see that the 
Assistant Inspector General testified under oath that he found 
no evidence of a political interference in the analysis that 
was being conducted for the rule or in how the contractors were 
treated. That said, clearly I think when you read the report, I 
agree that it seems as though the process could have been 
managed better.
    So, you know, I want you to understand that I do understand 
your concerns about that. That if I'm confirmed I am committed 
to ensuring that there is fairness and accuracy in the 
assessment of impacts and benefits associated with this rule.
    I have over 20 years of experience in the--working on NEPA 
issues, their highly complex baseline analysis in particular is 
a highly complex issue and is the sort of thing that, if 
confirmed, I would certainly take a closer look at. As I said, 
you know, given my experience as we discussed yesterday, given 
my experience in the private sector, I, and working on mine 
projects in particular, I understand the importance of high 
wage mine jobs to rural communities. I'm committed to making 
sure that the analysis is a fair and accurate one.
    Senator Barrasso. I agree.
    You're an expert on this area of the law and you've 
practiced at one of the world's really top law firms. So I look 
at this, I think, do you believe that a Federal agency can 
estimate job losses using, as its baseline, a rule that really 
hadn't even taken effect in most of the country yet. They said 
that's where we are. But they're not there.
    Ms. Schneider. Senator, you know, if I am confirmed, I may 
be a deciding official on this rule. I would certainly need to 
study the complex issues that you raise more closely and more 
carefully, including any public comment that is issued on the 
rule before it would be appropriate for me to take a position 
on this issue.
    Senator Barrasso. OK.
    Thank you, Mr. Chairman.
    The Chairman. Excuse me, we're calling some audibles on 
other matters. Has the Senator from Wyoming finished his 
questions?
    Senator Barrasso. My time is expired, Mr. Chairman. I do 
have a question or so for Ms. Suh, but we can delay that. Thank 
you.
    The Chairman. If it is something we can accomplish quickly, 
why don't you go ahead?
    Senator Barrasso. Thank you, Mr. Chair, Senator Hoeven. OK.
    Ms. Suh, I'd like to revisit a written question that I 
submitted to you about the Hewlett Foundation's energy program. 
Last month I had asked whether natural gas was one of the high 
carbon fuels that the Hewlett Foundation was trying to 
eliminate in our American energy mix. You stated that the 
Hewlett Foundation's energy program, ``was focused on ensuring 
the clean and efficient production of energy, not on the 
elimination of natural gas or other fossil fuels.'' So that's 
what you stated.
    It appears that in 2001 the Hewlett Foundation provided a 
200 thousand dollar grant to the Western Resource Advocates for 
the development of a clean electric energy plan. In 2004, the 
Western Resource Advocates released the plan which read, 
``Continued investment in fossil fuel generation to meet 
growing power needs increases our exposure to these economic 
risks and environmental impacts.'' The plan went on to 
recommend retiring over 8,000 megawatts of existing coal and 
natural gas fired power plants, so over 8,000 megawatts of 
existing coal and natural gas fired power plants.
    So the question is help me understand the inconsistency, if 
you would, between your written answer and the Hewlett 
Foundation's grant to the Western Resource Advocates which has 
as its goal eliminating natural gas fired power plants.
    Ms. Suh. Senator, thank you for that question.
    I recognize you have a number of concerns with my quotes. 
Let me try to take the opportunity to reassure you that I 
absolutely support the responsible development of natural gas 
and other fossil fuels from our public lands. In particular, I 
believe, I have demonstrated that support in my role as 
Assistant Secretary for Policy, Management and Budget and that 
support is obvious in the increased budget that we have for our 
land management agencies and development agencies, the Bureau 
of Land Management, BOEM and BSEE.
    I do not know the specifics of the grant that you're 
referring to, but I'm happy to look into it further and have 
further conversations with you.
    Senator Barrasso. I'd appreciate it because there's an 
additional Hewlett Foundation funded report, one in 2007, in 
June, called Golden Opportunity, California's Solutions for 
Global Warming. It says the largest source of global warming 
pollution in California is the carbon dioxide emitted from 
burning fossil fuels, oil used in cars and trucks, coal and 
natural gas burned to generate electricity and the natural gas 
used in homes and businesses. So I'm still having a hard time 
understanding the inconsistency between these grants and your 
claim that the Foundation's energy program wasn't focused on 
eliminating fossil fuels such as natural gas.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    I'm also going to put into the record at this point a set 
of grants that were made by the William and Flora Hewlett 
Foundation. It includes grants, for example, to the Bipartisan 
Policy Center, which had Bob Dole and Howard Baker and a number 
of others. Pete Domenici I gather is a senior fellow there. The 
Western Governors Association, as I think there's some 
important work going on there. I want to put it in perspective.
    So without objection we'll put that into the record at this 
time.
    The Chairman. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Ms. Schneider, I'd like to thank you for coming by and 
visiting with me. I appreciate it.
    One follow up question for you is on the Stream Buffer 
Rule. The 1983 Stream Buffer Rule follows the principle of 
State primacy and therefore provides the flexibility that makes 
it workable. The new proposal by the Administration, I think, 
does not. I'm concerned about it.
    North Dakota is No. 1 in the Nation in land reclamation. We 
have, obviously, a very large coal and electricity industry. It 
supplies something like 9 different States.
    We're No. 1 in land reclamation and we need that State 
primacy and flexibility to continue to make sure that we can 
administer the Stream Buffer Rule in a way that works. I'd like 
to hear your thoughts on, if approved, how you'll work with us 
to do that.
    Ms. Schneider. Senator, thank you very much for the 
question. I want to thank you as well for the opportunity to 
meet with you last month and discuss a variety of issues that 
are important to your State.
    I strongly believe that collaboration with States is key. 
It's an extremely important component to the Federal 
decisionmaking process. We need to understand how we can work 
with States, if I'm confirmed, I'm committed to doing that.
    Senator Hoeven. Thank you. Appreciate it. You know, we will 
need to be able to work with you on this important issue. So, 
and again, thank you for coming in--by to see me on this and 
other issues.
    Ms. Schneider. Thank you, sir.
    Senator Hoeven. Ms. Suh, 2 things.
    One, talk about multiple use on public lands. You know, in 
your new position that's a big, big time issue. When we talk 
about multiple use, we mean it.
    Both the chairman and ranking member of this committee have 
been out to North Dakota. They know what we're talking about. 
But you need to tell me that you are committed to true multiple 
use, not saying it then only promoting certain uses. I'd like 
your commentary on that.
    Ms. Suh. Sir, thank you for that question.
    I absolutely am committed to true multiple use, to the 
multiple use mandates that we have at the Department of the 
Interior. Again, I believe my record in the past 4 and a half 
years, as part of the Department of the Interior's leadership, 
has supported all of these multiple use mandates that we have 
including the mandates that we have for responsible energy 
development.
    Senator Hoeven. So, if confirmed, will you commit to come 
out to North Dakota and meet with our grazers and talk to them 
directly on how on the national grasslands, millions of acres 
of national grasslands you're willing to work with them so that 
they both can run their cattle operations in a way that's 
viable, but also meet the multiple use requirement?
    Ms. Suh. I absolutely am, sir. I'd be delighted.
    Senator Hoeven. Are you will to rely on the scientific 
evidence put forward by universities like North Dakota State 
University that are specialists in this area? Are you willing 
to commit to work with them in terms of coming up with 
solutions for the Grazing Associations?
    Ms. Suh. Absolutely, sir. Yes.
    Senator Hoeven. On the--and I know this question was posed 
to you as well, but again, could you give me some indication 
about how you intend to approach the sage grouse issue? That's 
an issue in our State as well. Obviously the energy issues are, 
you know, huge industry in our State.
    So how do you intend to approach this sage grouse issue?
    Ms. Suh. Sir, thank you for that question.
    Obviously the sage grouse is an enormous priority for the 
Department. If I were to be confirmed for this position it 
would be an absolute, all hands on deck, approach again, both 
within the bureaus that I oversee and across the Department, 
working with my colleagues to ensure that we are doing 
absolutely everything that we can to ensure the conservation of 
this species to avoid the necessity of a listing.
    Senator Hoeven. Thank you. Appreciate it.
    The Chairman. Thank you, Senator Hoeven. You clearly are 
going to get the Secretary to North Dakota. That clearly was 
established this morning.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman. I appreciate the 
nominees being here. This committee does want to ensure that 
the Department of the Interior has people in place in important 
positions to enable it to achieve its mission. Both of these 
are key positions.
    However, as you know, we do have some questions that are 
legit for this committee to raise. They've been raised on a 
bipartisan basis to better understand what your positions would 
be should you be confirmed.
    First for Ms. Suh, as you know, I'm very interested in this 
issue of permitting. I sent you a question about that. You did 
give me a written response which I appreciate.
    Federal permitting, to me, is one of the areas where we 
should be able to find some bipartisan consensus. But the 
Administration needs to play a more aggressive role in that. We 
continue to fall in the rankings in terms of countries where 
you can get a permit and develop something and that leads a lot 
of investors not to look at the United States, but elsewhere.
    There are ten metrics by the International Monetary Fund, 
for instance, for the ease of doing business.
    One is this notion of permitting. How long it takes to get 
a government green light to build something. We continue to 
fall. We're now 17th in the world.
    So my question for you is, you know, how can you in this 
new position help to get rid of some of the bureaucratic 
hurdles? Often we are told that there are lots of different 
agencies involved. There's litigation that looms sometimes for 
as long as 6 years after securing permits. We're told for 
energy projects sometimes there's as many as 34 different 
permits, often sequential.
    So, I guess, again, I appreciate your response. But I'd 
like you to give me a little more specifics as to how you would 
deal with this. U.S. Fish and Wildlife permits are required for 
a lot of these domestic energy projects, in particular. So this 
committee does have special interests there.
    Do you think there's room for Fish and Wildlife to improve 
how efficiently those permits are being processed?
    Ms. Suh. Senator, thank you for that question.
    I absolutely think there is room for improvement. The 
opportunities for improving our permitting processes have been 
a priority for this Administration. I believe there's some very 
good examples of where we've done a good job of that, in 
California with the Desert Renewable Energy plans. I think 
we've come a long way in terms of working across jurisdictional 
lines to improve processes and make those processes more 
efficient, transparent, reliable and predictable for industry.
    I would make it a top priority to ensure that we move that 
forward in different ways and different places around the 
country. I think my experience in working on trying to reduce 
the bureaucracy to create more efficiencies. With a lot of the 
management reforms that I've had leadership on we didn't miss 
current job applicability to a lot of the opportunities in the 
permitting realm.
    Again, if confirmed, I would be committed to working on 
this and working with you to improve the ways that we permit 
and to expedite the process.
    Senator Portman. Do you have any specific measures that you 
are willing to tell us today that you would take to improve the 
process?
    Ms. Suh. Again, I think there's a number of places where 
we've done it right. I think looking at what we've done in the 
California desert around permitting a lot of those renewable 
energy projects and doing it in a very expeditious timeframe is 
where we should start.
    So how do we expand that and use that as a model elsewhere 
in the country for opportunities, again, to pilot this and to 
expand this.
    Senator Portman. By the way, the renewable community has 
expressed concern about this as have, obviously, the more 
traditional energy components of our energy economy. So I 
appreciate the fact that you had that example in California. 
Again, some of the solar and wind folks who come to see me on 
this, but I also want to be sure that those same efficiencies 
are applied to what we're doing now in Ohio which is developing 
Utica and Marcellus to the benefit of our economy there.
    So I assume you're not looking at this as something that's 
just of use on renewable projects.
    Ms. Suh. Absolutely not. Yes, sir.
    Senator Portman. To Ms. Schneider, I know you have 
responded to a question earlier from Senator Barrasso. I wasn't 
here to hear the question.
    But, as you know, I'm one of the signatories of this letter 
that was sent to you and it regards the Office of Surface 
Mining's proposed Stream Rule and specifically this issue of 
how you estimate what the job loss would be. The proposed 
Stream Rule would replace the 1983 Stream Rule with a 2008 rule 
in States other than Tennessee and Washington, as I understand 
it. I just want you to know that as one member of this issue it 
is extremely important to me from Ohio, I know Senator Manchin 
was also on that letter, and I thought your response was very 
general, very vague.
    Understanding that you're not in the position now and you 
can't make commitments as to what's happening in that 
Department today. I wonder if you could just give me a little 
more of a sense that you do understand the urgency of this 
issue for us. Our coal industry is under a lot of pressure. 
This is one issue where we're looking for the right statistics 
to be used, the right data to be used, to ensure that, you 
know, we do have a cost benefit analysis that makes sense.
    Ms. Schneider. Senator, thank you for the question. I want 
to thank you for the letter which raised the issue to me so 
that I could consider it.
    When I received your letter I immediately downloaded a copy 
of the report so that I could take a look at it firsthand for 
myself. I also have had the opportunity to review the Assistant 
Inspector General's testimony before the House recently on this 
issue. I think it's a critically important issue.
    You know, in my over 20 years of experience working on NEPA 
issues, there is--it's clear that the accuracy and the fairness 
of the cost benefit analysis is absolutely critical to the 
Federal decisionmaking process. Make sure that the information 
provided is disclosed to the public. So the public has an 
accurate assessment of the proposal and have a clear 
opportunity to comment are also critically important.
    I've been working with the business community for close to 
13 years now. I understand. I'm also working actually on, 
specifically, some coal projects currently and some other 
mining projects.
    I understand very clearly that high wage coal jobs are 
critically important for local communities and that those 
benefits trickle down through the economy. So I am committed to 
making sure that any assessment done for this proposal, to the 
extent it's issued, is done in a fair and accurate manner with 
respect to cost and benefits.
    Senator Portman. Thank you, Ms. Schneider. You've given a 
more thorough answer today in your testimony.
    I would hope that you would take a look at the letter again 
and look at your response and maybe give us a more fulsome 
explanation in response to that letter. I think that would be 
helpful for the committee going forward to be able to work with 
you on that issue.
    Senator Portman. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Portman.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ms. Suh, when we had a chance to visit you informed me that 
you didn't, at that time, have substantive knowledge regarding 
the Fish and Wildlife Service's plan and the EIS for ANWR. We 
discussed ANWR in some pretty broad terms at that point in 
time. But I'm hoping today that you'll be able to provide me 
with some additional detail on your views and what we could 
expect from Fish and Wildlife Service going forward as it 
relates to ANWR.
    Specifically when do you expect the final plan for ANWR to 
be released and will it include a development alternative?
    Ms. Suh. Senator, it's my understanding that they're still 
working through all of the alternatives. There's not a 
preferred alternative that they have identified.
    I do not know the timeframe associated with this 
decisionmaking process. So I'm sorry. I'm just unfamiliar with 
where they're at.
    Senator Murkowski. So have you had a role in this policy 
decision for Fish and Wildlife?
    Ms. Suh. I have not, ma'am.
    Senator Murkowski. I'm trying to determine exactly where 
your leadership role has been previously. You have come in to 
me both here in committee and also in my office as well as your 
testimony before EPW regarding your current role there at 
Interior. You seem to have indicated previously that you've had 
at least involvement in major policy decisions, priorities, 
within the 9 bureaus there at Interior.
    But yet when the specific questions are asked about or 
specific policy decisions are asked about whether it's ANWR 
wilderness. At EPW you were asked about the Gulf of Mexico 
drilling moratorium. You've been asked about the wind farm bald 
eagle take permits. I've asked you about King Cove. You've 
demurred in terms of your level of involvement.
    So I guess trying to determine where that expertise is. If 
you could give me specifically which priority policy decisions 
within either Fish and Wildlife Service or National Park 
Service you have been involved with and your specific role in 
crafting these and then helping to advance them.
    Ms. Suh. Senator----
    Senator Murkowski. Because you've mentioned specifically 
the budget piece of it which the Office of Policy, Management 
and Budget, you say you managed the budgets. But is it more 
than just managing budgets or is it actual policy decisions?
    Ms. Suh. Thank you for that question.
    I'm sorry for the confusion around my current role and 
responsibilities at the Department.
    My role is a fairly large one. I'm in charge of enterprise 
operations for the entire Department. That is primarily 
administrative as it relates to budget, finance, IT, HR. I have 
been involved in policy decisions, specific policy decisions as 
they relate to Fish and Wildlife Service and the National Park 
Service or of the jurisdiction of the Assistant Secretary for 
Fish and Wildlife and Parks----
    Senator Murkowski. But----
    Ms. Suh. That falls outside of my jurisdiction. I have been 
associated with some across the Department, policy issues like 
the Land and Water Conservation Fund, like the Youth Policy 
Priorities of both Secretary Salazar and Secretary Jewell. 
Those are 2, I think, primary areas that I've been involved in 
and perhaps more of the forward facing policy that you're 
interested in.
    Senator Murkowski. Then let me ask you about LWCF because I 
have been focusing on how we deal with the extraordinary 
maintenance backlog that DOI has. I have raised the issue, the 
concern, that as we put out additional funds, additional 
Federal dollars to acquire more land while we have a 
considerable backlog to deal with. Then give me your role in 
that policy decision to increase a request in funding for LWCF 
in recent years despite what we acknowledge, I think we all 
acknowledge, has been the highest ever total maintenance 
backlog for our land management agencies.
    So where were you on that policy decision?
    Ms. Suh. Ma'am, thank you for this question. I know we 
discussed it when I had a chance to meet with you in person.
    I do not believe that the opportunities afforded by the 
Land and Water Conservation Fund are in contrary position to 
the responsibilities that we have for appropriate management 
and for addressing the maintenance backlog. I think those 2 
things are not mutually exclusive.
    Senator Murkowski. Do you think it is somewhat inconsistent 
though that we would spend more moneys to purchase additional 
lands when we really don't have an aggressive policy in place 
for how we're going to pay for the maintenance which I think we 
all agree is a key priority?
    Ms. Suh. Senator, first let me make it clear that if I were 
to be confirmed in this position and certainly even within the 
context of my existing position, I am eager to work with you 
and to hear your ideas about how we can more rationally 
approach this issue of the maintenance backlog.
    Again, I think in many cases Land and Water Conservation 
Funds are used to acquire parcels that more rationalize our 
management approaches on landscapes that can increase actually 
the efficiency that we have in our management. So they reduce 
the costs and the burdens to the taxpayers.
    Senator Murkowski. So how----
    Ms. Suh. But by being able to, again, purchase some of the 
in-holding properties that we have----
    Senator Murkowski. Right.
    How would you feel then about using some of the LWCF 
Federal land acquisition funds to help pay down the maintenance 
backlog?
    Ms. Suh. Again, I would be eager to sit down and have 
conversations with you about how we can be creative in these 
times of limited financial resources to do all the things that 
we need to do in the Federal Government, both in terms of 
managing our budgets well and in terms of protecting these 
lands.
    Senator Murkowski. Let me ask you a question, Ms. Schneider 
and this relates to the news that we received last week that 
Shell was going to be canceling its exploratory drilling 
program in the Chukchi Sea this summer.
    I mentioned publically, I was disappointed but quite 
honestly I wasn't surprised. We saw the decision come down from 
the Ninth Circuit. But I've also mentioned in my opening 
comments to you that we also have regulatory uncertainty and 
permitting predictability that is kind of hanging in the air 
right now as it relates to development in the Arctic.
    You and I both know the investment that Shell has made, 
almost $6 billion since 2008. They're looking at this from a 
very practical business judgment decision and saying, you know, 
should we move forward with additional hundreds of millions of 
dollars this summer when we've got 2 fronts that we're dealing 
with. We've got the litigation and we also have the uncertainty 
on the permitting process.
    So just very quickly to you, are you and more particularly, 
is this Administration committed to developing the oil and gas 
resources that exist in the Beaufort and the Chukchi Seas?
    Ms. Schneider. Senator, thank you for that question.
    I had an opportunity to read the Ninth Circuit decision 
myself when it came out and was disappointed to see the 
decision. I agree with you that business needs regulatory 
certainty and predictability. I mean, people, particularly when 
they're going to invest huge sums of money, need to understand 
what the rules of the road are.
    If I'm confirmed to this position and I'm not currently 
part of the Administration, so I can't speak to their views, 
but if I am confirmed to this position, I am committed to 
ensuring that there is an opportunity for greater regulatory 
certainty including for the potential for offshore oil and gas 
exploration off of Alaska.
    Senator Murkowski. I thank you for that commitment.
    Do you think that the Administration is equally committed 
to the development of our resources offshore?
    Ms. Schneider. Based on what I've read, you know, in the 
trade press and, you know, listening to, you know, speeches and 
that sort of thing, my impression is that yes, they are that, 
you know, the President is committed to the all of the above 
strategy and that includes safe and responsible development 
both onshore and offshore and in Alaska.
    Senator Murkowski. Thank you.
    Then finally, does the Department intend and I guess I'd 
ask you to commit to a dual track then for development in the 
Chukchi in 2015, meaning that that Department will work to 
remediate the EIS that the Ninth Circuit stuck down. But at the 
same time then continuing its work to evaluate an exploration 
program so that Shell can proceed in 2015, again knowing what 
the rules of the road are?
    Ms. Schneider. You know, I'm not sure what the Federal 
Government will decide to do with respect to that recent 
decision. They do have a period of time in which to consider 
whether or not they're going to appeal that decision. So I 
don't know, because again, I'm not within the Department, what 
approach they're going to be taking.
    I would hope that they would be making an informed decision 
in consultation with all affected stakeholders. That would 
certainly be the approach that I would take.
    Then on your other track, you know, yes, I think that 
that's something that the government should be able to work 
forward with.
    Senator Murkowski. Alright.
    My concern, of course, is that OK, we focus on the EIS, we 
get that resolved. Then we haven't done anything to work on 
the----
    Ms. Schneider. On the rules.
    Senator Murkowski. On the rules of the road which we all 
recognize----
    Ms. Schneider. Right.
    Senator Murkowski. Are very important.
    So thank you, I appreciate your response.
    Ms. Schneider. Thank you.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Thank you both this morning for your 
forthrightness. You addressed the Senator's questions 
thoughtfully, in my view.
    Ms. Suh, I am not going to offer additional and passionate 
remarks with respect to the fire risk, but again, I want you to 
know how important that is to me. I appreciate your 
participation in the Administration's approach which has led to 
a bipartisan effort here.
    I also want to note that since you had a hearing before the 
Environment and Public Works Committee you now have had not 2, 
but 3 days of hearings which is as many as Chief Justice 
Roberts and Chief Justice Alito had for lifetime appointments 
to the Supreme Court. So we'll look forward to seeing you 
advance. I appreciate the way you've addressed the questions.
    Because today's hearing is a continuation of prior hearings 
at which members had the opportunity to ask questions both in 
person and for the record I'd also like to ask that any members 
who have additional questions for the record to submit them, do 
so by the close of business today.
    The Chairman. So with that we will excuse both of you. We 
thank you for your cooperation here today.
    The committee is adjourned.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

  Responses of Janice M. Schneider to Questions From Senator Murkowski
    Question 1. CIRI Lands--The Cook Inlet Region Native Corporation in 
1971 was promised a land conveyance from your Department under terms of 
the Alaska Native Claims Settlement Act. A complex land exchange in the 
1970's in the Cook Inlet area resulted in the regional corporation's 
village entities seeking more land. Only last year, after a court 
resolution, was it confirmed that CIRI is now about 42,000 acres shy of 
the amount of land it was promised at the time of the Act's passage. 
Secretary Jewell earlier this month in a letter to me seemed to confirm 
that the Department agrees that CIRI is owed additional lands. But the 
Secretary said ``more work remains to be done'' to resolve issues 
relating to CIRI's entitlement.
    1a. Exactly what work remains to fmalize how many acres CIRI is 
owed, how the Department intends to finalize the CIRI entitlement and 
transfer those lands or other compensation, and exactly how soon that 
can all happen? There is an old saying, ``Justice delayed is justice 
denied.'' Now 43 years after passage of the claims settlement act, now 
that the fmallitigation is settled, it only seems right that CIRI could 
quickly select its remaining lands so the corporation can gain revenues 
from them to better the lives of South central Alaska Natives. I would 
appreciate more details on how the Department intends to resolve the 
CIRI land-shortage entitlement issue.
    Answer. Because I am not currently part of the Administration, I 
cannot address the specifics of any ongoing work to complete CIRI 
entitlement transfers. I understand that Rhea Sub, Assistant Secretary 
for Policy Management and Budget, and the President's nominee to be 
Assistant Secretary for Fish and Wildlife and Parks, will be providing 
a response for the record.
    Question 2. Susitna-Watana Dam--The State of Alaska is seeking to 
gain conveyance of a statehood land selection it made a number of years 
ago along the Susitna River valley, lands that could end up involved as 
part of a state plan to build a hydroelectric project at Watana, on the 
Susitna River. I and my staff were led to believe the Department would 
be able to promptly transfer the lands to the State.
    2a. Can you discuss where the transfer currently stands and whether 
there are any obstacles preventing fmalization of the land transfer? 
The transfer certainly does not indicate Administration support for the 
hydro project, which has not even begun its environmental impact 
statement process. But it would clarify land ownership issues for the 
potential reservoir, clarity needed to help prevent costly delays in 
conducting the environmental studies, engineering and permitting needed 
for a decision on the project to be made.
    Answer. Because I am not currently part of the Administration, I am 
not aware of the details of the transfer, and cannot address the 
matter. I understand that Rhea Suh, Assistant Secretary for Policy 
Management and Budget, and the President's nominee to be Assistant 
Secretary for Fish and Wildlife and Parks, will be providing a response 
for the record.
    Question 3. Oil and Gas Development----
    3a. Are you committed to oil and gas development in the Arctic?
    3b. Will you commit to working on a dual track on further work on 
the EIS and review of Shell's program for the 2015 season?
    In your initial answers for the record, you indicated you supported 
the President's commitment to an ``all-of-the-above energy strategy to 
expand domestic energy production and reduce dependence on foreign 
sources of energy.'' Do you believe that this strategy includes a 
commitment to increasing oil and gas production on Federal lands?
    Answer. I believe the President's ``all-of-the-above'' energy 
strategy includes safe and responsible oil and gas production both 
onshore and offshore, including Alaska. I also agree with you that 
business needs regulatory certainty and predictability. When deciding 
whether to invest money in exploration and development activities it is 
important to understand what the rules of the road are. If confirmed, I 
am committed to ensuring that there is an opportunity for greater 
regulatory certainty, including for potential oil and gas exploration 
and development offshore Alaska. I am aware of the Ninth Circuit Court 
of Appeals' recent decision remanding the Environmental Impact 
Statement for Lease Sale 193 to the Bureau of Ocean Energy Management, 
and Shell Oil's announcement that it has decided to postpone 
exploration in the Chukchi Sea in 2014. Because I am currently in 
private law practice, I cannot speak on behalf of the Administration, 
and I do not know how the Department will decide to proceed with 
respect to the recent Ninth Circuit Court of Appeals decision. I do 
believe that the Department should continue to work with industry and 
stakeholders to ensure that any oil and gas development in the Arctic 
and elsewhere is done safely and responsibly.
   Responses of Janice M. Schneider to Questions From Senator Barasso
    Question 1. On Friday, January 31,2014, you supplemented the 
hearing record by stating that, if confirmed, you would ensure ``any 
assessment of costs and benefits for any proposed rule'' would be 
completed ``in a manner consistent with Federal law.''
    On February 4, 2014, you testified before the Committee that you 
have ``over 20 years of experience working on NEPA issues.''
    1A. Based on your legal experience and knowledge, do you believe 
that Federal law authorizes the Office of Surface Mining to use the 
2008 stream buffer zone rule as its baseline for estimating job losses 
expected to result from the agency's stream protection rule?
    1B. Based on your legal experience and knowledge, do you believe 
that Federal law authorizes any Federal agency to use a rule which has 
not taken effect, or has taken effect in only a few states, as its 
baseline for estimating job losses expected to result nationwide from a 
proposed rule?
    Answer. As I mentioned at the confirmation hearing, if I am 
confirmed, I may be a deciding official on any Office of Surface Mining 
Reclamation and Enforcement proposed stream protection rule, and I 
would need to study the complex issues that you raise more closely and 
more carefully, including public comments, before it would be 
appropriate for me to take a position on this issue. Due to my 
experience, including my nearly 13 years in private practice, I 
understand the importance of high wage mine jobs to rural communities. 
If confirmed, I will be committed to ensuring that any assessment of 
costs and benefits for any proposed rule fairly and accurately reflects 
the impacts and benefits from the proposal, in a manner consistent with 
Federal law.
    Question 2. Section 1(b )(7) of Executive Order 12866 provides 
that:

          Each agency shall base its decisions on the best reasonably 
        obtainable scientific, technical, economic, and other 
        information concerning the need for, and consequences of, the 
        intended regulation.''

    2A. Do you agree that President Obama has affirmed Executive Order 
12866?
    2B. If so, please explain whether you believe any Federal agency 
could comply with section 1(b)(7) of Executive Order 12866 by using a 
rule that has not taken effect as its baseline for estimating the 
impacts of a proposed rule?
    Answer. When the President issued Executive Order 13563 on January 
18,2011, he reaffirmed the principles, structures, and definitions 
governing contemporary regulatory review that were established in 
Executive Order 12866. I would add that Section l(c) of Executive Order 
13563 also provides, in relevant part, that ````[i]n applying these 
principles, each agency is directed to use the best available 
techniques to quantify anticipated present and future benefits and 
costs as accurately as possible.'' I assure you that if I am confirmed 
I will be committed to ensure there is fairness and accuracy in the 
assessments of impacts and benefits associated with a rule proposal, 
consistent with Federal law. As I mentioned when I appeared before the 
Committee this week, if I am confirmed, I may be a deciding official on 
any Office of Surface Mining Reclamation and Enforcement proposed 
stream protection rule, and I would need to study the complex issues 
that you raise more closely and more carefully, including any public 
comment, before it would be appropriate for me to take a position on 
this issue.
    Question 3. Following your first nomination hearing on December 17, 
2013, I submitted the following written question, among others, to 
4you:

    On May 24, 2012, you published a Latham & Watkins Client Alert 
Commentary on BLM's pending hydraulic fracturing rule. In the 
commentary, you discussed the impact that BLM's hydraulic fracturing 
rule would have on Indian tribes. You discussed how BLM's rule may put 
Indian lands at a competitive disadvantage with state and private 
lands. You wrote:
          Indeed, where reservations are 'checkerboarded,' oil and gas 
        operators would be able . . . to move just a few feet away onto 
        privately held or state lands where none of the new regulations 
        would apply, potentially depriving tribes of critical sources 
        of revenue.''

    BLM's rule will also put Federal public lands at a competitive 
disadvantage, and deprive public land states, like Wyoming, of critical 
sources of revenue.
    If confirmed, you would oversee BLM. What steps would you take to 
ensure that BLM's hydraulic fracturing rule will not put Federal public 
lands and Indian lands at a competitive disadvantage with state and 
private lands? You responded with the following written answer:
    If confirmed, I will work with the BLM to make certain that it 
continues to take appropriate steps to ensure that hydraulic fracturing 
on Federal and Indian lands is conducted in a manner that is safe, 
environmentally responsible, and economically viable for industry. In 
addition, I understand that the BLM is taking steps to improve the 
processing of applications for drilling permits through automation and 
other process improvements and I will work with states and tribes to 
eliminate redundancies and maximize flexibility where possible, and 
work to ensure that these steps will help Federal and Indian lands 
remain attractive for oil and gas producers.
    Would you please specify what steps that you, if confirmed, would 
take to ensure that BLM's hydraulic fracturing rule does not put 
Federal public lands and Indian lands at a competitive disadvantage 
with state and private lands?
    Answer. As I mentioned in my initial response and at the 
confirmation hearing, I will work with states and tribes to eliminate 
redundancies and maximize efficiencies and flexibility where possible, 
and work to ensure that these steps will help Federal and Indian lands 
remain economically viable for oil and gas producers. I also believe 
working with states and tribes and--other stakeholders during the 
implementation process of rules is important to understand what can be 
done to improve the way rules are implemented. If I am confmned, you 
have my commitment to ensure that BLM keeps an open dialog with states 
and tribes to understand their perspectives, including through rule 
implementation.
  Responses of Janice M. Schneider to Questions From Senator Alexander
    Question 1. Some of my colleagues on this committee have raised 
concerns about the stream buffer zone rule, specifically about a recent 
report by the Inspector General. This report suggests that Office of 
Surface Mining employees asked contractors to change their analysis to 
make the argument they wanted to make stronger. This gives the 
appearance of ``cooking the books.'' Regardless of one's position on 
the stream buffer zone rule, I'm concerned about any attempt to 
``cooking the books'' on rules. If confirmed will you ensure that 
regulations written under your watch will not ``cook the books,'' but 
instead use appropriate analysis?
    Answer. As I mentioned at the confirmation hearing, I read the 
Inspector General's report and saw the Assistant Inspector General 
testify under oath that he found no evidence of political interference 
in the analysis that was being conducted for the rule or in how the 
contractors were treated. That said, it seems as though the process 
could have been managed better. I understand your concerns, and I want 
to assure you that if I am confirmed I will be committed to ensure 
there is fairness and accuracy in the assessments of impacts and 
benefits associated with any rule proposal. I agree that the public 
should have access to a fair and accurate assessment of this type of 
information before a rule is finalized.
    Question 2. appreciate your commitment to learn more about the 
Office of Surface Mining's proposed stream rule. I would like to 
reiterate my request made in the hearing that you provide a formal 
written response to the letter Senators Barrasso, Manchin, Lee and I 
sent to you regarding the rule.
    Answer. As I mentioned at the confirmation hearing, your letter 
brought this issue to my attention, and I immediately obtained a copy 
of the publicly available version of the Report issued by the Inspector 
General on December 20, 2013 that your letter referenced so that I 
could familiarize myself with the issues. I also know that the 
Assistant Inspector General subsequently testified under oath that he 
found no evidence of political interference in the analysis that was 
being conducted for the rule or in the how the contractors were 
treated. That said, I understand your concerns, and, as mentioned in 
the written response to your letter that I provided on January 31, 
2014, I want to assure you that if I am confirmed I will be committed 
to ensure there is fairness and accuracy in the assessments of impacts 
and benefits associated with any rule proposal. I agree that the public 
should have access to a fair and accurate assessment of this type of 
information before a rule is finalized.
                                 ______
                                 
      Responses of Rhea S. Suh to Questions From Senator Murkowski
    Question 1. King Cove Road----
    1a. Who, specifically, at the Department is working to identify and 
evaluate options that would improve access to affordable transportation 
and health care for the residents of King Cove, as Secretary Jewell 
pledged would happen?
    Answer. The Secretary is committed to engaging the leadership of 
all the relevant bureaus and offices within the Department to work with 
you, the State of Alaska and the King Cove community to develop viable 
modes of transportation from King Cove to Cold Bay, which will ensure 
the human health and safety needs of the community are met.
    Question 1b. Please outline the specific actions the Department of 
the Interior has undertaken to help the people of King Cove between 
December 23, 2013, when Secretary Jewell rejected the road, and today.
    Answer. I am not aware of any actions the Department has taken on 
this issue since December 23, 2013.
    Question 1c. If you do not believe the road is an acceptable 
alternative, please provide examples of alternatives that you believe 
would be as reliable and safe as a road. How do you propose to pay for 
those ideas?
    Answer. I have reviewed the Record of Decision which outlines a 
variety of alternatives to improve access and the availability of 
medical services for the people in the region while preserving the 
values and resources of the Izembek refuge and the areas protected as 
designated Wilderness. These alternatives include providing a marine-
road link by implementing a landing craft or passenger ferry. I have 
not yet had the opportunity to assess the costs and benefits associated 
with these options, but I look forward to engaging in meaningful dialog 
with you to give full consideration of these and other opportunities 
that present a path forward, should I be confirmed.
    Question 1d. Do you believe that the Department of the Interior has 
adequately fulfilled its Trust Responsibility to the Aleut Native 
people of King Cove?
    Answer. In his report to the Secretary, Assistant Secretary--Indian 
Affairs Washburn discussed the responsibility of the Department in 
fulfilling our trust responsibility to Alaska Native people. 
Specifically, he stated: ``We believe that this report fairly presents 
the tribal views in this decisionmaking process and thus meets the 
Administration's consultation duties under the trust responsibility.'' 
Based on his analysis, the government to government consultation 
described in the Department's Record of Decision, as well as the 
Secretary's commitment that the Department will work with the State, 
the Aleutians East Borough and the local communities to develop 
transportation alternatives, I believe the Department has fulfilled its 
trust responsibility.
    Question 1e. I know that during your previous hearings you 
indicated that you played no role in the Fish and Wildlife Service's 
recent decision to grant permits that would allow for the taking of 
eagles at wind farms around the country, but, to the extent possible, 
please reconcile that decision with the rejection of the King Cove road 
on the grounds that it could cause the birds discomfort for a small 
portion of the year.
    Answer. I do not believe there is any inconsistency between the 
Fish and Wildlife Service's Permit Duration Rule and the Secretary's 
decision regarding the proposed road through the Izembek refuge. The 
Rule grants permits for the incidental take of eagles and other species 
when such permits are authorized under appropriate laws, with 
mitigation requirements, on either private lands or public lands 
subject to multiple use mandates. The Secretary's decision avoids 
adverse impacts to protected birds and other species on lands which 
were specifically set aside for the purpose of protecting these species 
and their habitats.
    Question 2. ANILCA--Most of the Federal public lands in Alaska are 
governed by unique laws and regulations, much of which is included in 
ANILCA and ANCSA.
    a. Because Alaska's lands are so vast, and make up such a large 
percentage of your portfolio if you are confirmed, please explain, in 
detail, your knowledge of and experience in working with ANILCA and 
ANCSA. If you lack experience with those statutes, how do you plan to 
fill in the gaps in your knowledge?
    Answer. I have worked with a number of Alaska communities 
throughout my career. I have supported the rights of Native Alaskans, 
specifically in relation to the subsistence rights codified in Title 
VIII of ANILCA. During my time at the Hewlett Foundation, I recommended 
support for a project called the ``Indigenous Communities Mapping 
Initiative,'' which focused on four Native communities in the United 
States, including the Village of Chevak. Our support helped the Village 
map their cultural and subsistence uses of the resources in the Village 
and native corporation lands received pursuant to ANCSA, and helped 
provide important documentation in their negotiations with the Fish and 
Wildlife Service on the subsequent YK-Delta Goose Management Plan. I 
supported this project and the work of the Village and the four other 
communities over a period of 4 years, and during that period of time 
learned an enormous amount about the lives of the Cu'pik people, the 
aspirations of the community, and the need and opportunity within the 
bounds of law and regulation to support these aspirations.
    In addition, the Foundation was a seed funder of the Tongass 
Roundtable process, which brought together a diverse group of 
stakeholders to discuss how to incorporate economic, cultural, and 
ecological values in public policy issues throughout the region. During 
this time I met with and got to know a number of stakeholders in 
Southeast AK, including Sealaska, the United Fisherman of Alaska, and 
the AK Forestry Association. From this process, I gained a deep 
appreciation of ANILCA, Fish and Wildlife Service regulations, and the 
complexities and history of the legal challenges surrounding the 
Tongass National Forest.
    If confirmed, I welcome the opportunity to spend more time on the 
ground in Alaska to meet with Alaska Natives, rural Alaska communities 
and others, to further immerse myself in the issues affecting all 
Alaskans. If confirmed, I fully expect to work with my program managers 
and lawyers to ensure that the unique nature of the Alaska programs are 
addressed in all of our decisions.
    Question 3. ANWR----
    Question 3a. When do you expect the final plan for ANWR to be 
released? Will it include a development alternative?
    Answer. My understanding is that the final Arctic National Wildlife 
Refuge Comprehensive Conservation Plan is under review in the 
Department. I am not aware of a release date or of what will be 
included in the plan.
    Question 3b. Do you believe that the 1002 Coastal Plain, which was 
set aside for oil and gas development as part of a compromise reached 
under ANILCA, should be developed? If not, why not?
    Answer. The 1002 Coastal Plain is tremendously important to the 
American people, and Congress provided, in ANILCA in 1980, that the 
decision was to be left to a future Congress, and not to a. Executive 
branch determination. I believe the decision whether or not to develop 
the 1002 Coastal Plain is a difficult one, which should be made after 
thorough and careful analysis, input from all stakeholders, and 
rigorous debate. The Secretary has stated, and I agree, that even under 
an all-of-the above energy strategy, there are some places, like the 
Arctic National Wildlife Refuge, that should not be developed.
    Question 3c. Secretary Jewell has repeatedly stated her intentions 
to work at a local level when making land management decisions that 
impact a specific region. Are you aware of the level of support among 
Alaskans regarding the responsible development of the 1002 Area?
    Answer. My understanding is that the 1002 Coastal Plain is an area 
important to the entire country, for a variety of reasons. I fully 
support the Secretary's commitment and efforts to land management 
decisionmaking rooted in sustained engagement with local communities in 
fulfilling the Department's responsibility to manage the nation's 
natural resources on behalf of the American public.
    Question 4. ANTIQUITIES ACT--During his most recent State of the 
Union Address, the President pledged that he would use his ``authority 
to protect more of our pristine Federal lands for future generations.''
    Question 4a. Was that line included in the speech at the urging of, 
or with the consent of, anyone from the Department of the Interior? If 
not, how do you think it came to be part of the President's speech?
    Answer. I am not aware of any communications between the Department 
of the Interior and the Office of the President regarding any 
statements contained in President's State of the Union Address. If 
confirmed, I would be guided by Secretary Jewell's belief that 
potential monument designations should focus on areas where there is a 
groundswell of public support, a commitment to public engagement, and 
the involvement of local communities and Members of Congress.
    Question 4b. Given the President's pledge, has he-or anyone at the 
Department of the Interior, including Secretary Jewell or you-targeted 
any lands in Alaska for designation as wilderness?
    Answer. The President has no authority to designate an area as 
wilderness, only Congress can make such a designation. The Department, 
as directed by Congress, reviews and may identify the wilderness values 
and suitability for wilderness of lands under the jurisdiction of 
agencies within the Department. The President may make recommendations 
to the Congress for its review. I am not aware of any lands in Alaska 
identified by anyone in the Department for designation as wilderness.
    Question 4c. Do you believe it would be appropriate for the 
President to designate more land in Alaska as wilderness? If so, please 
identify such lands and state the basis for designated them.
    Answer. No. Only Congress has the authority to designate land as 
wilderness under the Wilderness Act.
    Question 5. Endangered Species Act--It has come to my attention 
that EPA has initiated an Endangered Species Act (ESA) Section 7 
consultation with the Fish and Wildlife Service and the National Marine 
Fisheries Service on the proposed rule regarding Section 316(b) of the 
Clean Water Act governing power plant cooling water intake structures. 
The rule has the potential to be applied in an overly broad manner such 
that it could require facilities to install cooling towers or stop 
operations if a threatened or endangered species is located in a water 
body from which the facility draws water, even if there is no evidence 
of impact to that species.
    Question 5a. Do you believe the 316(b) proposed rule should require 
a power generator to monitor all species in a water body from which a 
facility draws water, or should the rule only focus on threatened and 
endangered species directly affected by the intake structure?
    Question 5b. In the past, 316(b) monitoring focused on the 
prevention of ``adverse environmental impact'' on threatened and 
endangered aquatic life. Do you believe the scope of monitoring should 
be expanded to look at species that may be in the water body and might 
be indirectly affected by intake structures?
    Question 5c. Do you think it is appropriate to order a facility to 
install a cooling tower or stop operations if a threatened or 
endangered species is located in a water body from which the facility 
draws water, when there is no evidence of impact to that species? If 
yes, should any consideration be given to the impact on electric 
reliability?
    Question 5d. Please describe the contacts that you or anyone with 
DOl of whom you have knowledge have had with EPA on this issue.
    Answer. (Question 5a-d). I am aware that the EPA and the Fish and 
Wildlife Service are engaged in a Section 7 consultation on this 
rulemaking, but I have had no involvement in this consultation. While I 
have no direct knowledge of contacts between the Department and EPA on 
this matter, I understand Section 7 consultations are managed in the 
Ecological Services program within the Service.
    Question 6. Sage Grouse--Do you believe that the National Technical 
Team Report on the Greater Sage-grouse is based on the best available 
science?
    Question 6a. Should you be confirmed, what other sources of 
information outside of the National Technical Team Report will you use 
if or when the FWS makes a listing determination related to the greater 
sage grouse?
    Answer. Although I am not familiar with the specifics of the 
National Technical Team Report, I know that the FWS is committed to 
using the best available science to guide its listing decisions. I 
understand the Report was designed to serve as a resource for the BLM 
and Forest Service to inform their planning processes. In addition, I 
have been informed that the FWS created a Conservation Objectives Team 
of State and FWS experts who developed a report, informed by the NTT 
Report, of up-to-date information from States, and other scientific 
information to describe conservation objectives for the bird to inform 
the state and Federal planning efforts underway. If confirmed, I will 
ensure the FWS considers both of these documents, other available 
scientific information, species experts and sustained public engagement 
in making its listing decision.
    Question 7. Wilderness--The recent King Cove road decision by 
Secretary Jewell has highlighted a very real reason why I am incredibly 
concerned about any new proposals to designate wilderness in Alaska, or 
anywhere, for that matter.
    Question 7a. What is your personal view of wilderness? What 
criteria should be used when determining whether to establish new 
wilderness?
    Answer. Millions of Americans appreciate and enjoy wilderness areas 
for their pristine resources and recreational values including hunting 
and fishing. Wilderness is one of many Federal land designations, but 
only Congress may designate wilderness areas. I will continue to 
support the appropriate management of our current wilderness areas, and 
will continue to defer to Congressional action on the designation of 
new wilderness areas. In the Wilderness Act, Congress has developed the 
criteria for designating wilderness, which generally includes size, 
natural condition, and opportunities for solitude or primitive 
recreation.
    Question 7b. Do you believe there is ever a time when it is 
appropriate to adjust a boundary of a wilderness?
    Answer. I believe there may be circumstances in which it may be 
appropriate to adjust a boundary of a wilderness area. However, as I 
have previously noted, only Congress has the authority to designate 
land as wilderness under the Wilderness Act.
    Question 8. Beringia International Park Proposal--In my written 
questions after our last hearing, I asked you about the proposed 
Beringia International Park. Unfortunately, I do not believe your 
responses addressed my questions.
    Question 8a. Please state your views on the proposed Beringia 
International Park. Do you support it or oppose it?
    Answer. I am unaware of any current proposal, under consideration 
by Congress or the Administration, which would establish Beringia 
International Park. I understand that over the last several years, the 
U.S. State Department has negotiated the terms of a nonbinding 
Memorandum of Understanding that would recognize the recent addition of 
a national park in Russia and underscore the international cooperation 
that has been in place in the Bering Strait area for over 20 years. 
This Memorandum of Understanding would not establish an international 
park nor would it change regulations, access, or subsistence uses. I 
support the continued communication and cooperation between the people 
and governments of the United States and Russia concerning the Beringia 
region and I support the on-going collaboration and communication with 
the local communities and Native villages in the region to ensure their 
voices are well represented in the Department's management decisions.
    Question 8b. I am very concerned that the Federal Government has 
not outlined why or how this Park would benefit the region or the State 
of Alaska. Are you aware of any descriptions or examples that seek to 
do that? If so, please list them here.
    Answer. As stated above, the Memorandum of Understanding, led by 
the U.S. State Department, would not establish an international park. I 
understand that the intent of the Memorandum of Understanding is to 
help foster mutual understanding and cooperation among the U.S., 
Russia, and the indigenous people of the region to promote the study, 
interpretation, and enjoyment of the natural and cultural resources of 
the region.
    Question 8c. If this park becomes a reality, how would NPS work to 
ensure local and state government as well as tribal input in developing 
policies for subsistence activities, wildlife management, and potential 
resource development in and around the park?
    Answer. I agree that local, state, and tribal stakeholders should 
be engaged in the discussion of this Memorandum of Understanding and on 
other issues concerning the Beringia region. I understand that the NPS 
has made many public outreach efforts both recently and over the past 
20 years regarding Beringia topics, including bringing 25 community 
leaders from Northwest Alaska to a conference in Anadyr, Russia, in 
September, 2013. If confirmed, I will work closely with the NPS to 
ensure that they fully engage the local, state and tribal stakeholders 
and work to address any concerns that they may have concerning the MOU 
or any activities of the NPS in the Beringia area.
    Question 9. Law Enforcement--In Alaska, there has been an 
unfortunate and dramatic change in attitude that we are seeing from our 
Federal land management agencies' law enforcement officers. We have 
heard complaints from across the State, whether it was Ted Spraker 
feeling harassed in the Kenai National Wildlife Refuge, or the 
overzealous and heavy-handed approach that was used in the Fortymile 
mine raids.
    Question 9a. If confirmed, will you work with me to help to scale 
back these heavy-handed ways, and to work to find less aggressive 
solutions to any issues that may arise?
    Answer. If confirmed, I will work with you to help ensure that the 
Federal law enforcement personnel within the Fish and Wildlife Service 
act appropriately, professionally, and within the scope of their 
responsibilities to protect wildlife resources for the continuing 
benefit of the American public. I believe this can be achieved in 
communication and partnership with state, local and tribal 
counterparts.
    Question 9b. What would you propose to improve this situation in 
Alaska and elsewhere?
    Answer. If confirmed, I would promote the efforts of Federal land 
management agencies to build strong partnerships with state, local and 
tribal law enforcement officials in the state of Alaska and elsewhere 
to ensure the fair and effective enforcement of Federal conservation 
laws.
    Question 10. Tribal Self-Governance/Funding Agreements--The 
National Park Service and the Fish and Wildlife Service currently have 
authority under Title II of the Indian Self-Determination Act 
Amendments of 1994 to enter into funding agreements with tribes in 
Alaska in and around each National Wildlife Refuge and National Park 
Unit within my State.
    Question 10a. Unfortunately, i. Fiscal year 2013, only one tribe 
was able to enter into such an agreement. How would you work to 
encourage more tribes to participate in this program?
    Answer. A key element of the Indian Self-Determination Act is that 
Tribes having an interest in an Annual Funding Agreement (AFA) first 
inform the particular agency of their interest. It is then the 
responsibility of the agency to develop an agreement as interests and 
budgets allow. The Office of Self Governance and the Bureau of Indian 
Affairs currently encourage tribes that are eligible to participate in 
these programs. I understand that the Fish and Wildlife Service and the 
National Park Service have diligently responded to tribal inquiries, 
and resultant AFA's have been developed over the years.
    Question 10b. Will you commit to me that, if confirmed, you will 
expand the use of Funding Agreements with Alaska Tribes?
    Answer. If confirmed, I commit to increasing outreach to agencies 
and to Tribes to find new opportunities to expand Funding Agreements 
wherever they may be appropriate, including opportunities specifically 
in Alaska.
    Question 11. International Expenditures--Have personnel from USFWS 
deployed overseas--either for short-term trips or long-term stationing-
in support of the President's July I, 2013 Executive Order on combating 
wildlife trafficking? If so, how many, how often, and to where?
    Answer. I have been advised that in support of the President's July 
I, 20I3 Executive Order, the FWS has increased its international 
engagement to combat wildlife trafficking under existing authorities. 
Fish and Wildlife personnel have participated in a variety of 
international activities since July, 20I3. In January, 20I4, the FWS 
created the first position stationing a special agent at a U.S. Embassy 
to coordinate investigations of wildlife trafficking and support 
wildlife enforcement capacity building. The first posting was created 
in Bangkok, Thailand. This is the only long-term stationed employee the 
Service currently has overseas. The Service sends staff on short-term 
trips periodically to train wildlife law enforcement officers in other 
countries, particularly in Africa, and to conduct international 
coordination on wildlife trafficking issues.
    Question 12. Natural Gas Development--You earlier referred to 
natural gas as the ``greatest threat to the ecological integrity of the 
West.'' I understand that you now support the president's all-of-the-
above energy strategy.
    Question 12a. What is your current view of natural gas development?
    Answer. I support the responsible development of natural gas on our 
public lands. Over the last decade, we have seen a remarkable 
transformation in the methods for developing energy resources, a 
transformation that has not only changed the energy portfolio of our 
nation but fundamentally improved opportunities for energy security, 
economic development and reduction of harmful emissions.
    Question 12b. If confirmed, do you plan to take any action that 
restricts or prevents natural gas development on Federal lands?
    Answer. If confirmed, I will continue to support the President's 
all-of-the-above energy strategy and work with all parties to 
facilitate safe and responsible energy development on public lands 
within the context of applicable laws and regulations.
    Question 12c. Can you please describe any other factors that you 
believe threaten the ecological integrity of the West?
    Answer. I believe that the prolonged drought is a threat to the 
ecological integrity of lands and to communities throughout the west, 
particularly in light of its direct relationship to wildland fire risk. 
Fire seasons are now longer and more costly than they have been in the 
past, as I have observed in my current position as the Assistant 
Secretary for Policy, Management and Budget. If confirmed, I am 
committed to working with local communities, Federal and state 
entities, and other interested parties to help address the risks to 
western communities from drought and the impacts of fire. We will 
strive to balance conservation and development on our public lands, and 
to continue managing our resources as efficiently and effectively as 
possible.
    Question 13. CIRI Lands--The Cook Inlet Region Native Corporation 
in 1971 was promised a land conveyance from your Department under terms 
of the Alaska Native Claims Settlement Act. A complex land exchange in 
the 1970's in the Cook Inlet area resulted in the regional 
corporation's village entities seeking more land. Only last year, after 
a court resolution, was it confirmed that CIRI is now about 42,000 
acres shy of the amount of land it was promised at the time of the 
Act's passage. Secretary Jewell earlier this month in a letter to me 
seemed to confirm that the Department agrees that CIRI is owed 
additional lands. But the Secretary said ''' more work remains to be 
done'' to resolve issues relating to CIRI' s entitlement.
    Question 13a. Exactly what work remains to finalize how many acres 
CIRI is owed, how the Department intends to finalize the CIRI 
entitlement and transfer those lands or other compensation, and exactly 
how soon that can all happen? There is an old saying, ``Justice delayed 
is justice denied.'' Now 43 years after passage of the claims 
settlement act, now that the final litigation is settled, it only seems 
right that CIRI could quickly select its remaining lands so the 
corporation can gain revenues from them to better the lives 
ofSouthcentral Alaska Natives. I would appreciate more details on how 
the Department intends to resolve the CIRI land-shortage entitlement 
issue.
    Answer. I understand and appreciate the importance of the CIRI land 
entitlement. I understand that recent research into the issue finds 
that the transfer of approximately 70,000 acres is required to fulfill 
the CIRI ANCSA entitlement. I have also been advised that the BLM is 
currently actively engaged in discussions with CIRI to fulfill their 
remaining entitlement within current law.
    Question 14. Susitna-Watana Dam--The State of Alaska is seeking to 
gain conveyance of a statehood land selection it made a number of years 
ago along the Susitna River valley, lands that could end up involved as 
part of a state plan to build a hydroelectric project at Watana, on the 
Susitna River. I and my staff were led to believe the Department would 
be able to promptly transfer the lands to the State.
    Question 14a. Can you discuss where the transfer currently stands 
and whether there are any obstacles preventing finalization of the land 
transfer? The transfer certainly does not indicate Administration 
support for the hydro project, which has not even begun its 
environmental impact statement process. But it would clarify land 
ownership issues for the potential reservoir, clarity needed to help 
prevent costly delays in conducting the environmental studies, 
engineering and permitting needed for a decision on the project to be 
made.
    Answer. I have been informed that the State of Alaska requested a 
Power Site Classification be opened for the purpose of conveyance to 
the State consistent with the Alaska Statehood Act. I have also been 
advised that the BLM in Alaska is actively engaged in discussions with 
the State regarding their request to lift the withdrawal. I am not 
aware of any obstacles associated with this process thus far.
       Responses of Rhea S. Suh to Questions From Senator Heller
    Question 15. As you may know, I recently released a discussion 
draft of Federal legislation, the same draft you mentioned in your 
confirmation hearing that you had seen, would implement a mix of 
conservation and funding measures to address the primary threats to 
sage grouse and its habitat. As I work through the drafting process, I 
have been coordinating closely with the State ofNevada, the Federal 
agencies, conservation groups, local governments, ranchers and many 
other stakeholders in the state to produce a product that is beneficial 
to the Greater Sage-Grouse and the people of Nevada.
    Broadly, do you believe congressionally approved land management 
designations (such as Wilderness) within the framework of a listing 
decision?
    Answer. Yes, generally speaking, I believe that congressionally 
approved land management designations, such as wilderness, can benefit 
species, and certainly are a factor in considering whether there are 
threats to the continued existence of species.
    Question 16. Can public lands-related legislation positively affect 
a listing decision or allow the Fish and Wildlife Service to provide 
Nevada greater flexibility under Section 4( d) of the Endangered 
Species Act if the Greater sage-grouse is listed as threatened?
    Answer. As I stated above, generally speaking, I believe that 
congressionally approved land management designations can benefit 
species. Any efforts to boost conservation efforts and mitigate threats 
for candidate species are helpful.
    Question 17. What specific requirements must a state plan and/or 
corresponding Federal legislation meet to provide a state flexibility 
under Section 4(d)?
    Answer. I have been advised that a 4(d) rule is just one of many 
tools available under the Endangered Species Act (ESA) for protecting 
species listed as threatened. The name of the rule is derived from 
section 4( d) of the ESA, which directs FWS to issue regulations deemed 
``necessary and advisable to provide for the conservation of threatened 
species.'' A 4(d) rule allows FWS the flexibility to customize 
prohibitions and regulate only those activities needed to provide for 
the conservation of threatened species. If confirmed, I would be happy 
to meet with you and your staff along with FWS experts to provide 
better information in understating how FWS can grant flexibility under 
the rule.
    Question 18. Contracting for permitting services: As you know, the 
DOl requires individuals and companies to seek permits for hundreds of 
different activities, from drilling on Federal lands to holding events 
in National Parks. As you also know, the systems in which taxpayers 
acquire DOl permits could use improvement. While there have been steps 
taken to improve the processes and technology for citizens to access 
permits electronically, there are still many paper-based permits and 
processes that are not as convenient or efficient as they could be. 
This means DOl loses out on potential revenues.
    If confirmed as Assistant Secretary, I hope your experience with 
Management & Budget will help you find ways to improve FWS & NPS 
permitting processes to make them more userfriendly and save Federal 
dollars. How will FWS seek to continue to migrate their paper permits 
to online systems in a cost conscious manner? Will you consider 
innovative funding models to reduce the expense of contracting for 
these services?
    Answer. I agree that in today's age of electronic communications 
the government must provide state-of-the-art processes to the public 
that we serve. I believe that my record as Assistant Secretary for 
Policy, Management and Budget demonstrates that view. I created and 
manage one of the largest consolidations of IT systems in the Federal 
Government, which will result in over half a billion dollars in 
savings. As Federal budgets become increasingly constrained, my role 
has been to identify and lead efforts to ensure that we are as 
efficient as we can be. If confirmed, I would carry into this new role 
that same focus and look to build off best-practices and pursue 
innovative ways to reduce the expense of the Federal permitting 
process. I strongly support efforts of the Fish and Wildlife Service to 
migrate paper permits to online systems and understand the BLM is 
undertaking a similar approach to its oil and gas permitting process. 
If confirmed, I would continue to promote initiatives that improve the 
efficiency and reduce the costs of carrying out the Department's 
mission.
      Responses of Rhea S. Suh to Questions From Senator Barrasso
    Question 19. The Asian American Press ran an article about you on 
October 29, 2013 that stated--''

          Over the last 4 years, Suh has led the development and 
        implementation of Departmental goals on a number of key 
        initiatives, including the strategic transformation of the Land 
        and Water Conservation Fund, one of the government's most 
        valuable and visible conservation funding tools. The new 
        collaborative L WCF program was successfully piloted in the 
        formulation of the FY13 budget, and is a core element of the 
        President's FY14 budget for conservation.''

    Could you please elaborate as to how you ``led the development and 
implementation'' of ``the strategic transformation of the Land and 
Water Conservation Fund''?
    Answer. In response to requests from Congress and OMB to more 
clearly articulate the strategy and outcomes of the Department's LWCF 
program, I began the effort to better leverage the programs of the four 
land management agencies engaged in L WCF funds on cross-agency goals. 
Bureau land acquisition programs operate somewhat independently to 
address the separate and unique authorizations of each bureau, but 
conservation goals often transcend unit boundaries.
    Through an, iterative and collaborative process, I worked with the 
four land management agencies--the Bureau of Land Management, the 
National Park Service, the Fish and Wildlife Service and the Forest 
Service--to develop a collaborative L WCF program that empowers the 
agencies to work with each other and other stakeholders to identify and 
leverage land acquisition projects that are (a) strategic, (b) based on 
the best available science and analysis, and (c) enjoy the support of 
local communities. The process builds on momentum at the field, 
regional and national levels for strategic, landscape-scale 
conservation in alignment with the existing authorities and priorities 
of each agency. LWCF funds are allocated to the Collaborative projects 
and to each agency for ``core'' mission-specific acquisitions, 
including, for example, acquisition of American battlefields.
      Responses of Rhea S. Suh to Questions From Senator Alexander
    Question 20. Senators Flake, Lee, and I sent you a letter asking if 
you would support legislation to reimburse states that used state funds 
to open national parks during the government shutdown. Will you commit 
to working with Members of Congress to help pass legislation to 
reimburse states?
    Answer. Yes, as I stated in my hearing, I commit to working with 
you and other Members of Congress on legislation that would authorize 
reimbursement to the States for the portion of any donated funding that 
was expended or obligated to operate the parks during the recent 
Government shutdown.
    Question 21. I've spent a lot of time on mitigation fish 
hatcheries, including working with multiple agencies to find a solution 
to keep hatcheries in Tennessee open. I understand that the Fish and 
Wildlife Agency is conducting a review of the national hatchery system 
to determine the best approach for long-term sustainability. This may 
result in some mitigation hatcheries being closed or consolidated. 
While closures have not been announced, I'm concerned, that based on a 
memo from Sept. 2013, from Director Ashe, that the desired goal of the 
Fish and Wildlife service is to close mitigation hatcheries.
    The fear of many is that the final report will be used not as an 
analysis to make our national hatchery system better but as cover to 
close mitigation hatcheries because the Fish and Wildlife service would 
rather use its resources toward other policies such as Endangered 
Species Act activities. If confirmed will you inform this committee 
about proposals to close or consolidate mitigation hatcheries, prior to 
any decisions being made?
    Answer. I am aware of your engagement on this issue and greatly 
appreciate your efforts to ensure that hatcheries in Tennessee are kept 
open and running. I know that the Fish and Wildlife Service greatly 
appreciates your efforts as well.
    I am aware that the FWS conducted a review of the National Fish 
Hatchery System to examine the challenges facing the system and how 
best to operate the system in a more sustainable manner while 
supporting the agency's highest fish and aquatic conservation 
priorities. I understand that the FWS does not intend to close any 
hatcheries i. Fiscal year 2014 and language in th. Fiscal year 2014 
consolidated appropriations is consistent with that intent by directing 
that no funds will be used to close any hatcheries i. Fiscal year 2014. 
If confirmed, I commit to working with the FWS to ensure that the 
Committee is informed of any key decisions that may impact hatchery 
operations in the future.
    Question 22. The Bald Eagle is America's national symbol, beloved 
by millions of Americans and protected by Congress since the 1940's 
through the Bald and Golden Eagle Protection Act. This Act makes it 
illegal to kill or disturb Bald or Golden Eagles without a permit. 
Currently, wind farms and other types of businesses can receive permits 
making it legal to kill eagles for up to 5 years under certain 
conditions. The U.S. Fish and Wildlife Service has finalized a rule to 
extend the length of these permits for up to 30 years, despite having 
stated when the permit regulations were created that 5 years was the 
maximum length for compatibility with the preservation of eagles. This 
proposed change to 30 years was opposed by more than 120 organizations 
including national conservation associations, Indian tribes, and local 
interests. What are your views on the Department's responsibility to 
protect eagles from impacts of the growing number of wind farms across 
the United States?
    Answer. The Department is responsible for carrying out the mandates 
of the Migratory Bird Treaty Act and the Bald and Golden Eagle 
Protection Act, both of which protect eagles. The permitting process is 
a key mechanism to avoid and minimize the take of eagles from 
activities that can impact eagles. It is important to note that the 30-
year permit is a ceiling on permit length, and that the permit is 
subject to both annual reporting requirements and 5-year reviews, which 
allow for revisions to the permit requirements.
    Wind farms have an impact on eagles, and for that reason it is 
critical that they implement the kinds of conservation measures that 
will be required under these permits. The permit process provides the 
Fish and Wildlife Service the opportunity to work closely with wind 
developers and other project proponents onsite selection, surveys and 
monitoring, and operational measures that will minimize impacts to 
eagles and other birds, as well as bats. It is my understanding that 
these long-term permits will incorporate an adaptive management 
framework under which the FWS will review the project and make 
adjustments to ensure the permitted activity is consistent with the 
preservation standard required by the Eagle Protection Act. I also 
understand the FWS has been working with the wind industry to develop 
guidelines and best management practices on siting and operations to 
avoid and minimize the take of eagles, other migratory birds, and bats. 
The FWS is also working to educate and communicate these guidelines to 
the industry so that they are broadly implemented, and so that 
companies are aware of the potential enforcement consequences of not 
following these guidelines and taking eagles and migratory birds.
    Question 23. Do you believe there is enough information about the 
life-cycle of eagles, population levels across the states, and impacts 
from other man-made threats that would allow the Department to 
responsibly issue 30 year eagle take permits to the wind industry? Do 
you think the killing of birds by energy production poses an ecological 
threat?
    Answer. I think it is important to recognize that the 3009year 
eagle take permits are not for the wind industry only. Any industry or 
entity, such as developers building strip malls, utility companies 
constructing and operating power lines, and highway departments 
building roads, are able to apply for these permits. And, the 30-year 
permit term, which is an increase of the Fish and Wildlife Service's 
previous 5-year permits, provides a maximum term for the permit; 
applicants can request permits of any length up to 30 years. This 
longer term permit is subject to annual reporting requirements and 5-
year reviews. At the 5-year review, based on reporting data, population 
data, and other data, the FWS will determine whether changes to the 
terms and conditions of the permit are necessary to avoid and minimize 
take and can prescribe such changes going forward.
    The benefit of this permit to industry is that it provides a 
greater level of predictability for longer term projects. The benefit 
to eagles is that it provides much needed data on the effects of longer 
term projects to eagles and on the effectiveness of the mitigating 
measures and terms and conditions of the permits.
    More specifically, with respect to your questions, yes, I believe 
that the killing of birds is an ecological threat if the numbers of 
birds that are taken in a given area are high enough to result in a 
population decline. However, I understand that the FWS has limited the 
amount of take it will permit based on rigorous analysis of eagle 
populations and establishment of take thresholds for every region of 
the country. That ceiling, the 5-year review component of the longer 
term permits, and the annual reporting requirements, will, I believe, 
ensure that the longer term permits can be issued responsibly and will 
help the FWS conserve eagle populations at levels that are stable or 
increasing.
    Finally, I understand that the FWS is currently engaged in numerous 
significant research projects, many in partnership with the U.S. 
Geological Survey, that are vastly expanding what is known about eagle 
life-cycles, population status, migration corridors, and impacts from 
human activities. All these research initiatives will continue to 
inform the Department's overall eagle management objectives.
    Question 24. In it. Fiscal year 2013 Budget Request to Congress, 
the U.S. Fish and Wildlife Service estimated that 440,000 birds had 
been killed by wind turbines in the U.S. in 2009. The overwhelming 
majority of these birds would have been protected by the Migratory Bird 
Treaty Act. Yet only one wind company has been prosecuted for killing 
migratory birds protected by Federal law. What are your views on the 
protection of migratory birds in the context of energy production?
    Answer. My understanding is that wind energy is a relatively young 
industry and the first and only prosecution you referenced was the 
result of careful law enforcement investigative work, coupled with 
careful and deliberate consideration by the Department of Justice. The 
first prosecution under a law sets precedent for future cases, and is 
an example for other potential violators of the law. For these reasons, 
it is important to work with industry to develop and communicate the 
guidelines broadly and promote best management practices that avoid and 
minimize the take of migratory birds, and to carefully consider law 
enforcement action against those who choose not to follow those 
guidelines. This is the best way to strike the balance between energy 
production, conservation of migratory birds, and effective use of 
limited law enforcement resources.
    I understand that the Fish and Wildlife Service took a similar 
approach decades ago with other industries, including the oil and gas 
industry. Best management practices were developed for open oil pits 
that attracted and then killed waterfowl. Those practices were 
communicated to industry. Cases were made against entities that did not 
follow the practices and took migratory birds. Such cases are still 
made. I believe that the FWS anticipates a similar future for the wind 
industry, where most entities are following the guidelines and those 
that aren't will be subject to prosecution if and when take occurs.
    Question 25. In a 2007 interview with the Hewlett Foundation you 
said, in reference to natural gas development, that ``The pace and 
magnitude of this development is easily the single greatest threat to 
the ecological integrity of the West.'' This Administration has a 
tendency to pick winners and losers when it comes to energy production. 
If confirmed will you seek to stop or slow down natural gas 
development? If you think natural gas development is an ecological 
threat, do you also think wind energy development is an ecological 
threat?
    Answer. I support the President's all-of-the-above energy strategy, 
including natural gas and wind energy development. I have demonstrated 
that commitment in my record as Assistant Secretary for Policy, 
Management and Budget. Our energy needs continue to grow, and we must 
explore all appropriate ways to meet those needs. If confirmed, I am 
committed to pursuing pragmatic, balanced energy development that also 
ensures conservation of the Department's lands and waters. I will also 
support efforts to make our regulations and processes more consistent 
and transparent, so that those developing our energy resources operate 
on a level playing field when seeking permits and agreements for 
mitigating potential environmental impacts.
        Responses of Rhea S. Suh to Questions From Senator Flake
    Question 26. In June, the Fish and Wildlife Service announced two 
proposed rulemakings. The first proposed to delist the gray wolf, but 
relist the Mexican wolf as an endangered subspecies. The second 
proposed revisions to the Mexican wolf management plan, including 
consideration of a massive expansion of the Mexican wolf population 
area in Arizona and expanded management of the Mexican wolf on private 
lands. Numerous communities throughout Arizona have expressed concern 
about the proposed rulemakings. Despite the impact on Arizona, the Fish 
and Wildlife Service initially decided not to schedule a public hearing 
on the rules in Arizona, changing its tune after considerable pressure. 
Since the Fish and Wildlife Service will be under your jurisdiction, if 
confirmed, can you guarantee that any future decisions, rulemakings, 
etc. on the experimental Mexican wolf population will include at least 
one such hearing in the affected parts of Arizona?
    Answer. It is my understanding that there was a public hearing held 
in Pinetop, Arizona, on December 3, 2013, to solicit comments on both 
FWS proposals. I am committed to ensuring the strong engagement of 
local communities in our decisionmaking processes, and I will work with 
FWS to ensure a robust public engagement surrounding Mexican Wolf 
recovery.
    Question 27. As of last Friday, state and Federal officials 
announced that the experimental Mexican wolf population in the recovery 
area rose for the fourth straight year to 83 wolves in 15 packs. Can 
you explain what the Fish and Wildlife Service believes is a sufficient 
population of Mexican wolves in this area?
    Answer. I understand that a revised recovery plan will be prepared 
by the FWS that will likely establish a target population number for 
the experimental population area and, more importantly, describe how 
this population contributes to the recovery of the species as a whole.
    Question 28. What impact do you believe a large experimental 
population of wolves would have on communities in the area?
    Answer. My understanding is that the Fish and Wildlife Service is 
preparing an environmental impact statement to evaluate the impacts of 
its proposed experimental population rule. If confirmed, I would be 
happy to meet with you to discuss the draft EIS once it is published.
    Question 29. How does the Department intend to protect people and 
property in these communities from threats posed by the Mexican wolf 
population?
    Question 30. Specifically, what can be done to protect livestock 
and domestic animals, such as dogs, from being attacked by these 
experimental populations?
    Question 31. To what extent can individuals within the experimental 
wolf population area use lethal force to protect their property?
    Answer. (Questions 270929) I have been advised that under the 
current and proposed 1O(j) rule, any person has the right to 
``take''.including kill--a wolf that is threatening their safety at any 
time, regardless of their location. Any person also has the right to 
harass (non-injurious harassment) a wolf that is within 500 yards of 
people, buildings, facilities, pets, livestock, or other domestic 
animals. Livestock owners and operators also have the ability to 
``take'' a wolf-including kill--if a wolf is in the act of attacking 
livestock on public, private, or tribal land, pursuant to the 
conditions set forth in Fish and Wildlife Service regulations. The FWS 
is working on, and committed to, processes that allow people to use 
appropriate measures to protect lives and property within the 
experimental wolf population area.
    Question 32. I have heard from cattlemen in Arizona, for example, 
that the losses associated with wolf predation from these experimental 
packs have reached millions of dollars. How does the Department intend 
to reimburse those livestock owners for their losses and compensate 
communities?
    Answer. It is my understanding that through the recently signed 
consolidated appropriation, there is $1,000,000 included for the FWS-
led Wolf Livestock Demonstration Project. This program is designed to 
provide states and tribes with funding for deterrence of and 
compensation for livestock loss from wolf depredation.
    The FWS has established a Mexican Wolf/Livestock Coexistence 
Council to address financial impacts to local landowners living with 
wolves. The associated Mexican Wolf/Livestock Interdiction Fund will 
provide monetary incentives for proactive efforts to minimize the 
likelihood of depredations and compensation funding when depredation 
events occur. The Council is composed of a diverse group of ranchers in 
Arizona and New Mexico, conservation groups, Native American tribes, 
and two coalitions that represent rural counties in Arizona and New 
Mexico. The Interdiction Fund has received funding in the past through 
the Wolf Livestock Demonstration Project.
    Question 33. In addition to predation on livestock, the Mexican 
wolf population affects big game herds, such as elk and deer. To what 
extent do you believe Arizona's big game herds should be used to 
sustain the experimental Mexican wolf population?
    Answer. I have been advised that the FWS is in the process of 
projecting and analyzing impacts to wild ungulates from the proposed 
1O(j) rule in a draft environmental impact statement, which I am told 
will be available for public review in the spring of 2014. The Service 
is working closely with the game management divisions of the Arizona 
Game and Fish Department and the New Mexico Department of Game and Fish 
to gather and analyze this data.
    Question 34. Since most of the Mexican wolrs historic range extends 
into Mexico, can you explain what is being done to promote recovery 
there?
    Answer. I understand that the government of Mexico implements its 
own Mexican wolf recovery program, which includes a recovery plan 
within Mexico and semi-annual management plans. Mexico began 
reintroducing wolves to the wild in Mexico in 2011, with limited 
success so far due to illegal killing. The FWS coordinates with, and 
supports, Mexico through a number of programs and processes including 
the captive breeding program, information and equipment transfer by 
field staff from both countries; and coordination efforts within the 
Trilateral Committee.
    Question 35. Do you support expansion of the Mexican wolf recovery 
area?
    Answer. My understanding is that the June 13, 2003, proposed 
section lO(j) rule does not expand the wolf experimental population 
area, although it would allow wolves to range throughout the entire 
experimental population area in order to improve the recovery prospects 
for the species. I support that proposal.
    Question 36. What role do you believe states should play in 
administering the Endangered Species Act generally and the experimental 
Mexican wolf program specifically?
    Answer. The states are key partners in administering the ESA, 
particularly with regard to the reintroduction and management of the 
Mexican wolf. We greatly appreciate their assistance in implementing 
the Act. We coordinated closely with the states in developing the 
proposed 1O(j) rule and the environmental impact statement that 
accompanies the proposed rule.
  Responses of Rhea S. Suh to Questions From Senators Flake, Lee, and 
                               Alexander
    Question 37. Despite earlier commitments, the Department of the 
Interior (the ``Department'') has been seemingly unable to find 
``common ground'' among diverse interests, even on comparatively small 
matters. With your nomination to be Assistant Secretary for Fish and 
Wildlife, and Parks, there is an opportunity to reset, and your 
nomination hearing provides an ideal occasion for you and the 
Department to express in concrete terms that it is shifting away from 
its current ``politics-as-usual'' posture. For our part, you could 
begin by making a commitment to support legislation that would 
reimburse states that provided funds to temporarily reopen national 
parks during last year's government shutdown. If confirmed, this would 
be an area squarely within your purview.
    When previously asked about this issue, you stated, ``I understand 
that an act of Congress is needed to provide the National Park Service 
with the authority to reimburse the State . . . `` You declined, 
however, to indicate whether you would support such legislation.
    Given your current role overseeing the Department's budget and 
financial policy, you are presumably aware that following the 
government shutdown the Continuing Appropriations Act, 2014 (Pub. Law 
No. 113-46) provided retroactive pay to all Federal employees and 
provided retroactive funding for Federal agencies. What's more, those 
parks that were temporarily reopened during the shutdown collected gate 
entry fees. Nevertheless, it would appear that the National Park 
Service retained a shutdown windfall by keeping the money that some 
states provided to temporarily pay salaries and maintain park 
operations during the shutdown--both items Congress later retroactively 
funded.
    We can likely all agree that the best scenario would have occurred 
if we had been able to avoid a shutdown in the first place. But, we 
also hope that we can agree that those states, municipalities, 
companies, and individuals that came together to mitigate the damage 
created by one, should not needlessly continue to bear its 
consequences. So, we ask again, would you support legislation that 
requires the National Park Service to reimburse those states that 
provided funds to reopen national parks during the shutdown?
    Answer. As I stated in my hearing, I support repayment to the 
states in these circumstances, and understand that an act of Congress 
is needed to provide the National Park Service with the authority to 
reimburse the states for the portion of any donated funding that was 
expended or obligated to operate the parks during the Government 
shutdown. If confirmed, I commit to working with you and to other 
Members of Congress on legislation that would authorize reimbursement 
to the states for these donated funds.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

   Statement of Jonathan B. Jarvis, Director, National Park Service, 
                       Department of the Interior
    Thank you for your letter dated November 13, 2013, regarding the 
donation the State of Arizona (State) made to the National Park Service 
(NPS) to reopen Grand Canyon National Park (park) duri ng the recent 
government shutdown. Our national parks truly are natural and cultural 
treasures and major economic drivers.
    As you are aware, the State donated to the NPS a total of $651,000, 
equivalent to funding for 7 days of operations at the Park (at the rate 
of $93,000 per day). When the shutdown ended, the park had been open 
for 5 days. The NPS promptly returned the unobligated, unexpended 
balance of $186,000 to the State. In 1995, the NPS returned all donated 
funds to the State because they had not been obligated or expended when 
Congress enacted appropriations that allowed Grand Canyon National Park 
to reopen.
    The original shutdown Contingency Plan for the NPS specifically 
stated that the NPS would not entertain offers from other agencies or 
organizations to cover the cost to reopen parks, memorials, trails, 
roads, or other facilities. This initial determination was made in 
light of the complex legal issues involved with negotiating individual 
agreements with an unlimited number of potential donors. As the 
shutdown continued, the economic impact of national park closures 
across the country began to amass. Visitor spending generates an 
estimated $32 million in spending per day in communities near national 
parks and contributes $76 million each day to the national economy. On 
October 10,20 13, Secretary Jewell an nounced that the Department would 
consider agreements with Governors who ind icated an interest and 
ability to fu nd NPS personnel to reopen national parks in their 
states. We then began the process of negotiating individual agreements 
with the states that had expressed an interest in reopening certain 
national parks. This was a practical and temporary solution to lessen 
the pain for the businesses and communities that rely on the National 
Park System for their economic well-being.
    As enacted, the Continuing Appropriations Act of20 14 (Act) does 
not authorize the NPS to return to the State of Arizona donated funds 
that were obligated or expended during the government shutdown. The 
donation agreement between the State and the NPS expressly specified 
that the NPS would be unable to return obligated or expended funds 
without express direction from Congress:

          ``C. The parties further agree as follows:

          1. If the U.S. Congress appropriates funds for the operation 
        of the National Park System before the funds donated to the NPS 
        by the State are fully obligated, then the NPS will refund to 
        the State the unobligated balance ofthe State-donated funds. 
        Unless the U.S. Congress appropriates funds and expressly 
        directs the NPS to reimburse the State for State-donated funds 
        previously obligated or expended by the NPS, the NPS will not 
        reimburse the State for such previously obligated or expended 
        funds.''

    Sec. 116 of the Act does not provide the required statutory 
authority to return the funds donated by Arizona or other states and 
obligated or expended for the operation of individual park units during 
the shutdown. Sec. 116 applies to certain Federal grants ``to continue 
carrying out a Federal program.'' Sec. 116(b) explains that this 
authority applies only to ``a Federal program that the State or such 
other grantee had been carrying out prior to the period of the lapse in 
appropriations.'' The donations by the states to the United States were 
neither Federal grants nor a program carried out by a state prior to 
the lapse in appropriations.
    I appreciate the opportunity to address your specific questions:

    Question.  Do you believe Congress intended 10 provide a windfall 
10 the Park Service when it enacted the Continuing Appropriations Act o 
f2014?
    Answer. he NPS can only carry out budget and financial actions to 
the extent actually authorized by Congress. Several bills pending in 
Congress would authorize the NPS to return in full the donations made 
by the State of Arizona and the other states. In the absence of such an 
enactment, the return of the moneys donated by various states would 
have been a loan that Congress never authorized NPS to make.
    Question. When drafting the 2013 agreemenls wilh Arizona and other 
states, why did the Park Service include both a reimbursement clause, 
which was not included in the 1995 agreement, as well as a reftmd 
clause?
    Answer. When the NPS and the states negotiated and executed the 
donation agreements that allowed the NPS to reopen and operate the 
parks, the NPS did not know whether Congress would retroactively 
restore the funding and provide the statutory authority necessary to do 
so. The inclusion of the reimbursement clauses in the agreements was 
necessary to be clear that NPS lacked the authority to return the 
obligated funds without explicit Congressional action.
    Question. In the case of Arizona, were the non-Federal, stale-based 
funds formally obligated? If so, what was the mechanism or instrument 
that formally obligated those fonds?
    Answer. In the case of Grand Canyon National Park, the park was 
operated for 5 days with state-based funds. Obligations were incurred 
the moment the park reopened. Personnel costs make up the majority of 
park operating costs. In the case of personnel, an obligation was 
created as soon as park employees reported for duty.
    Question. Were those non-Federal, stale-based funds expended? If 
so, when were they expended?
    Answer. Expenditures occurred when payroll was processed and other 
expenses necessary to operate the park were paid.
    Question. Under normal circumstances, what would have been the cost 
out of the Park Service's budget to operate all of the parks that were 
opened lmder agreements like the one Arizona signed? How much in non-
Federal, state-based funds was made available to the Park Service under 
agreements like the one Arizona [signed]? Has that money been refonded 
to those states?
    Answer. National parks in six states were operated for varying 
periods oftime during the government shutdown using money donated by 
the respective states--Arizona, Colorado, New York, South Dakota, 
Tennessee, and Utah . The cumulative daily cost to operate the parks 
that were opened was $437,000. States donated a total of $3.6 million 
to fund park operations. The unobligated portion of each state's 
donation, totaling $1.6 million, has been returned to the respective 
states.

    An identical letter is being sent to the Honorable John McCain, 
U.S. Senate; the Honorable Trent Franks, House of Representatives; the 
Honorable Kyrsten Sinema, House of Representatives; the Honorable Ron 
Barber, House of Representatives; the Honorable David Schweikelt, House 
of Representatives; the Honorable Ann Kirkpatrick, House of 
Representatives; the Honorable Paul Gosar, House of Representatives; 
and, the Honorable Matt Salmon, House of Representatives. ,
                                 ______
                                 
                                              U. S. Senate,
                                      Washington, February 3, 2014.
Hon. Rhea Suh,
Assistant Secretary-Policy, Management and Budget, Office of the 
        Secretary, Department of the Interior, Washington, DC.
    Dear Assistant Secretary Suh.
    Despite earlier commitments, the Department of the Interior (the 
``Department'') has been seemingly unable to find ``common ground'' 
among diverse interests, even on comparatively small matters. With your 
nomination to be Assistant Secretary for Fish and Wildlife, and Parks, 
there is an opportunity to reset, and your nomination hearing provides 
an ideal occasion for you and the Department to express in concrete 
terms that it is shifting away from its current ``politicsas-usual'' 
posture. For our part, you could begin by making a commitment to 
support legislation that would reimburse states that provided funds to 
temporarily reopen national parks during last year's government 
shutdown. If confirmed, this would be an area squarely within your 
purview.
    When previously asked about this issue, you stated, ``I understand 
that an act of Congress is needed to provide the National Park Service 
with the authority to reimburse the State . . . '' You declined, 
however, to indicate whether you would support such legislation. Given 
your current role overseeing the Department's budget and financial 
policy, you are presumably aware that following the government shutdown 
the Continuing Appropriations Act, 2014 (Pub. Law No. 11 3-6) provided 
retroactive pay to all Federal employees and provided retroactive 
funding for Federal agencies. What's more, those parks that were 
temporarily reopened during the shutdown collected gate entry fees. 
Nevertheless, it would appear that the National Park Service retained a 
shutdown windfall by keeping the money that some states provided to 
temporari ly pay salaries and maintain park operations during the 
shutdown--both items Congress later retroactively funded.
    We can likely all agree that the best scenario would have occurred 
if we had been able to avoid a shutdown in the fi rst place. But, we 
also hope that we can agree that those states, municipalities, 
companies, and individuals that came together to mitigate the damage 
created by one, should not needlessly continue to bear its 
consequences. So, we ask again, would you support legislation that 
requires the National Park Service to reimburse those states that 
provided funds to reopen national parks during the shutdown?
    We hope that you will embrace this hearing as an opportunity to 
find common ground on issues like this, and we look forward to your 
response.
            Sincerely,
                                                Jeff Flake,
                                                      U.S. Senator.
                                                  Mike Lee,
                                                      U.S. Senator.
                                           Lamar Alexander,
                                             United States Senator.
                                 ______
                                 
   Statement of Floyd Mori, President & CEO, Asian Pacific American 
                  Institute for Congressional Studies
    The Asian Pacific American Institute for Congressional Studies 
(APAICS) is writing to you to ask that you affirm the nomination of 
Rhea S. Suh to be the next Assistant Secretary for Fish and Wildlife, 
and Parks. Ms. Suh is superbly qualified for the position and her 
experience in the Department will allow her to imediately provide 
expert leadership. With few people in the Department from communities 
of color, her confirmation will demonstrate a continuing effort to 
expand participation in our National Parks System.
    APAICS agrees with documentarian Ken Burns's thesis that National 
Parks feed America's soul. In this position Ms. Suh would oversee and 
coordinate all policy decisions for the National Park Service and the 
U.S. Fish and Wildlife Service. This is a position she is well suited 
for and where she will thrive. Throughout her illustrious career. Ms. 
Suh has been an advocate for our open spaces, the conservation of our 
land and water and the importance of local communities to forge a 
connection with the best of America's resources. This commitment 
includes introducing the importance of our National Parks to the youth, 
who will be the next to inherit and care for our wide open plans.
    Since 2009 Ms. Suh has been Assistant Secretary for the Department 
of the Interior's Policy. Management and Budget office. In this 
position she has accumulated vast knowledge of the working groups 
including budget, law enforcement, security management, human resources 
and procurements. She has worked well with her peers in the Department, 
with Legislative staff and most importantly those who utilize these 
resources everyday: the community.
    Ms. Suh's academic achievements are on par with her professional 
ones. She has a B.A. from Barnard College, Columbia University and an 
M.Ed from Harvard University. She has been awarded both a Fulbright 
Fellowship and a Marshall Memorial Fellowship. She is proud Coloradan 
which houses four of this country's National Parks and where she 
developed a life-time love affair with nature.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       RHEA SUH'S ACCOMPLISHMENTS
        as assistant secretary for policy, management and budget
    As Assistant Secretary for Policy, Management and Budget, Rhea Suh 
has saved the Department of the Interior more than $500 million in 
spending cuts and untold millions more through budget and management 
changes.
    These savings result from:

  <bullet> the launch of the Information Technology Transformation;
  <bullet> completion of the Department's integrated financial and 
        acquisition enterprise system; and
  <bullet> implementation of improvements in acquisition, finance, and 
        facilities.

    More specifically:

  <bullet> Conversion of the Department's enterprise business system to 
        cloud computing will save $2 million a year;
  <bullet> Renegotiation of the Department's telecommunications 
        contract will save $7.3 million in annual cost avoidance and an 
        additional $2.7 million in consolidation of circuits.
  <bullet> During 2011-2013, the Department saved of $217 million in 
        travel, supplies, and other support costs with implementation 
        of the Campaign to Cut waste.
  <bullet> Consolidating reporting tools will save $300,000 annually.
  <bullet> Deployment of the Department's new travel system saved $1.6 
        million.
  <bullet> Improvements in acquisition, including increased competition 
        and reduced risk implemented 2010-2013, saved over $200 
        million.


    In addition to Information Technology Transformation, Ms. Suh also 
guided the use of six priority performance goals and a new strategic 
plan to focus the decentralized diverse efforts of bureaus and offices 
and allowed Interior to leverage increasingly scarce Federal resources.
    By aligning strategic goals and annual operating plans, the 
Department of the Interior has:

  <bullet> Increased youth employment by over 30 percent in 2011 and 
        2012 as compared to 2009.
  <bullet> Developed 14,000 megawatts of new renewable energy capacity 
        on public lands through 2013.
  <bullet> Conserved over 730,000 acre-feet of water between 2010 and 
        2013.
  <bullet> Reduced violent crime by 35 percent in 4 communities where 
        Interior conducted its community policing initiative.
  <bullet> Inspected 87 percent of the high risk cases for oil and gas 
        production on public lands.

    Ms. Suh has also led the development and implementation of 
Departmental goals on a number of key initiatives, including the 
strategic transformation of the Land and Water Conservation Fund, one 
of the government's most valuable and visible conservation funding 
tools. The new collaborative LWCF program was successfully piloted in 
the formulation of the Fiscal year 2013 budget, and is a core element 
of the President's Fiscal year 2014 budget for conservation.
    Ms. Suh has also led efforts to enhance the Department's connection 
to local communities, including ``Youth in the Great Outdoors,'' which 
helped hire thousands of youth each year to work on natural and 
cultural resource conservation efforts, and engaged millions of youth 
about our wildlife, public lands, culture, and heritage.

                                   <all>


</pre></body></html>
